<html>
<title> - THE EFFECTS OF THE PATIENT PROTECTION AND AFFORDABLE CARE ACT ON SCHOOLS, COLLEGES, AND UNIVERSITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
   THE EFFECTS OF THE PATIENT PROTECTION AND AFFORDABLE CARE ACT ON 
                                SCHOOLS,
                       COLLEGES, AND UNIVERSITIES

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, NOVEMBER 14, 2013

                               __________

                           Serial No. 113-37

                               __________

  Printed for the use of the Committee on Education and the Workforce


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            

                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

85-459 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-000
                          
                          
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Rubeen Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Rauul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 John A. Yarmuth, Kentucky
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on November 14, 2013................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Benigni, Dr. Mark, D., Superintendent of Schools, Meriden 
      Public Schools, Meriden, Connecticut.......................    25
        Prepared statement of....................................    27
    Jandris, Dr. Thomas, P., Senior Vice President & Dean of 
      Graduate Programs, Concordia University Chicago............    15
        Prepared statement of....................................    17
    Maisto, Maria, President of New Faculty Majority Foundation & 
      Executive Director of its affiliated Foundation, Akron, OH.    18
        Prepared statement of....................................    21
    Needles, Gregory, L, Partner, Morgan, Lewis & Bockius, 
      Washington, D.C............................................     7
        Prepared statement of....................................    10


               THE EFFECTS OF THE PATIENT PROTECTION AND

               AFFORDABLE CARE ACT ON SCHOOLS, COLLEGES,


                            AND UNIVERSITIES

                      Thursday, November 14, 2013

                       House of Representatives,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The committee met, pursuant to call, at 10:04 a.m., in Room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Petri, Wilson, Foxx, Roe, 
Walberg, DesJarlais, Rokita, Bucshon, Barletta, Heck, Brooks, 
Messer, Miller, Andrews, Scott, Tierney, Holt, Courtney, Fudge, 
Polis, Bonamici, and Pocan.
    Staff present: Andrew Banducci, Professional Staff Member; 
James Bergeron, Director of Education and Human Services 
Policy; Molly Conway, Professional Staff Member; Ed Gilroy, 
Director of Workforce Policy; Benjamin Hoog, Senior Legislative 
Assistant; Amy Raaf Jones, Education Policy Counsel and Senior 
Advisor; Nancy Locke, Chief Clerk; Daniel Murner, Press 
Assistant; Brian Newell, Deputy Communications Director; 
Krisann Pearce, General Counsel; Alissa Strawcutter, Deputy 
Clerk; Juliane Sullivan, Staff Director; Brad Thomas, Senior 
Education Policy Advisor; Alexa Turner, Legislative Assistant; 
Tylease Alli, Minority Clerk/Intern and Fellow Coordinator; 
Jody Calemine, Minority Staff Director; Jamie Fasteau, Minority 
Director of Education Policy; Melissa Greenberg, Minority Staff 
Assistant; Eunice Ikene, Minority Staff Assistant; Brian Levin, 
Minority Deputy Press Secretary/New Media Coordinator; Megan 
O'Reilly, Minority General Counsel; Michele Varnhagen, Minority 
Chief Policy Advisor/Labor Policy Director; Michael Zola, 
Minority Deputy Staff Director; and Mark Zuckerman, Minority 
Senior Economic Advisor.
    Chairman Kline. A quorum being present, the committee will 
come to order.
    Good morning, I would like to welcome our guests and thank 
our witnesses for joining us today. Today we are going to 
discuss how the Patient Protection Affordable Care Act affects 
our nation's schools, colleges and universities.
    Before I do that though I see a number of faces in the 
room. I understand that we have a group of students from New 
York. I had the name written down here, because I don't go 
around every day saying Mamaronick, but welcome. We are glad 
that you are here to see Congress in action.
    Okay, since former Speaker Nancy Pelosi famously declared 
we had to pass the President's health care plan to learn what 
was in it, we continue to discover disturbing details. We have 
learned health care costs are going up, not down. Politico 
reports, quote--``Consumers are suffering from sticker shock.'' 
And the Associated Press revealed, people are being told to 
switch to more expensive policies.
    Sue Klinkhammer is one of those individuals, a Democrat 
from Kane County, Illinois. Sue asks, ``Someone please tell me 
why my premium in January will be 356 more than in December.'' 
A constituent from Plainview, Minnesota, recently shared with 
me that her health care plan is increasing more than 200 a 
month, and her family's deductible will jump by nearly 1,300. A 
couple from Chanhassen lamented a monthly increase of 140, 
money that could have helped pay for their daughter's college 
education.
    President promised insurance premiums would drop $2,500 for 
the average family, yet for Sue and many others this is one of 
many broken promises. We have learned full time jobs are being 
destroyed. A recent resolution endorsed by one of the nation's 
largest trade associations warned that employers will try to 
avoid the law's punitive mandates by cutting hours and pay, 
creating an underclass of less than 30-hour workers.
    This statement wasn't issued by a big business advocacy 
organization. It is a resolution endorsed by the leadership of 
the membership of the AFL-CIO. Other leaders in the labor 
community share this fear. The International Brotherhood of 
Teamsters, UFCW and Unite Here wrote the law will quote--
``destroy the foundation of the 40-hour work week that is the 
back bone of the American middle class.''
    Secretary Sebelius dismissed similar concerns as, quote--
``Speculation,'' but I think we can all agree with these union 
leaders that the law is leading to fewer full time jobs.
    Finally, we have learned millions of Americans will lose 
the health care plan they like. Kaiser Health News recently 
broke the story of hundreds of thousands of individuals 
receiving cancellation notices from their insurance companies; 
their policies no longer meet the dictates established under 
the law, and we have discovered the Obama administration has 
known for years this was going to happen. For families, this 
isn't just the lost of an insurance policy. It means losing 
access to their trusted family doctor and pediatrician all 
because Washington bureaucrats think they know best. President 
promised time and again if people liked their health care plan 
they could keep it, but millions of Americans are realizing 
they can keep their health care plan only if the President 
likes it.
    Higher health care costs, fewer full time jobs and loss of 
current coverage, that is a difficult reality unfolding in the 
lives of Americans across the country. The question we want to 
discuss today is whether the law is imposing similar hardships 
on America's classrooms.
    The government take over of health care transforms one-
sixth of our economy. Are schools and campuses immune from the 
consequences of the law? Recent headlines show that is not the 
case. From the Richmond Times Dispatch, quote--``Obamacare 
prompts cut backs for school part-timer's.'' From the Baltimore 
Sun, ``Community colleges cut adjunct hours to avoid 
Obamacare.'' From Education Week, ``Health care law poses 
challenges for Districts,'' and from the Weekly Standard, 
``Obamacare Costs One Indiana School District $6 million.''
    Over the last several years, we have talked a great deal 
about the budgetary challenges facing states, school districts 
and institutions of higher education. We have discussed how 
Washington can at times make these fiscal problems worse. Much 
of the debate has focused on the cost of federal rules, 
regulations and mandates that directly intervene in classrooms.
    Under the leadership of this committee, the House has taken 
action to reduce the federal footprint in K-12 education by 
passing the Student Success Act, and I hope we achieve similar 
results from Reform of Higher Education Act, both of which will 
help ensure taxpayers spend less on bureaucracy and more on 
student's education.
    However, we must be mindful that federal policies unrelated 
to education can still burden classrooms. The health care law 
is a prime example. AT a time when we need to recruit the best 
teachers, train today's workers for the jobs of the future and 
school leaders are trying to do more with less, imposing a 
fundamentally flawed and costly law on our schools is not in 
the best interest of teachers, parents, taxpayers or students.
    I look forward to exploring this issue further with the 
help of our witnesses. And with that, I will now yield to my 
distinguished colleague, George Miller, senior Democratic 
member of the committee, for his opening remarks.
    [The statement of Chairman Kline follows:]

Prepared Statement of Hon. John Kline, Chairman, Committee on Education 
                           and the Workforce

    Good morning. I'd like to welcome our guests and thank our 
witnesses for joining us. Today we will discuss how the Patient 
Protection and Affordable Care Act affects our nation's schools, 
colleges, and universities.
    Since former Speaker Nancy Pelosi famously declared we had to pass 
the president's health care plan to learn what was in it, we continue 
to discover disturbing details. We've learned health care costs are 
going up, not down. Politico reports ``consumers are suffering from 
sticker shock'' and the Associated Press revealed people are being told 
to switch to more expensive policies.
    Sue Klinkhamer is one of those individuals. A Democrat from Kane 
County, Illinois, Sue asked, ``Someone please tell me why my premium in 
January will be $356 more than in December?'' A constituent from 
Plainview, Minnesota recently shared with me that her health care plan 
is increasing more than 200 a month, and her family's deductible will 
jump by nearly 1,300. A couple from Chanhassen lamented a monthly 
increase of 140, money that could have helped pay for their daughters' 
college education. The president promised insurance premiums would drop 
2,500 for the average family, yet for Sue and many others this is one 
of many broken promises.
    We've learned full-time jobs are being destroyed. A recent 
resolution endorsed by one of the nation's largest trade associations 
warned that employers will try to avoid the law's punitive mandates by 
cutting hours and pay, creating an ``underclass of less-than-30-hour 
workers.'' This statement wasn't issued by a ``Big Business'' advocacy 
organization - it's a resolution endorsed by the leadership and 
membership of the AFL-CIO. Other leaders in the labor community share 
this fear.
    The International Brotherhood of Teamsters, UFCW, and UNITE-HERE 
wrote the law will ``destroy the foundation of the 40 hour work week 
that is the backbone of the American middle class.'' Secretary Sebelius 
dismissed similar concerns as ``speculation,'' but I think we can all 
agree with these union leaders that the law is leading to fewer full-
time jobs.
    Finally, we've learned millions of Americans will lose the health 
care plan they like. Kaiser Health News recently broke the story of 
hundreds of thousands of individuals receiving cancellation notices 
from their insurance companies; their policies no longer meet the 
dictates established under the law. And we've discovered the Obama 
administration has known for years this was going to happen.
    For families, this isn't just the loss of an insurance policy; it 
means losing access to their trusted family doctor and pediatrician, 
all because Washington bureaucrats think they know best. The president 
promised time and again if people liked their health care plan they 
could keep it. But millions of Americans are realizing they can keep 
their health care plan only if the president likes it.
    Higher health care costs, fewer full-time jobs, and loss of current 
coverage - that's the difficult reality unfolding in the lives of 
Americans across the country. The question we want to discuss today is 
whether the law is imposing similar hardships on America's classrooms. 
The government takeover of health care transformed one-sixth of our 
economy. Are schools and campuses immune from the consequences of the 
law? Recent headlines prove that's not the case:
         From the Richmond Times Dispatch, ``ObamaCare prompts 
        cutbacks for school part-timers;''
         From The Baltimore Sun, ``Community colleges cut adjunct 
        hours to avoid ObamaCare;''
         From Education Week, ``Health care law poses challenges for 
        districts;'' and
         From the Weekly Standard, ``ObamaCare costs one Indiana 
        school district $6 million.''
    Over the last several years we've talked a great deal about the 
budgetary challenges facing states, school districts, and institutions 
of higher education. We've discussed how Washington can at times make 
these fiscal problems worse. Much of the debate has focused on the 
costs of federal rules, regulations, and mandates that directly 
intervene in classrooms.
    Under the leadership of this committee, the House has taken action 
to reduce the federal footprint in K-12 education by passing the 
Student Success Act, and I hope we achieve similar results through 
reform of the Higher Education Act - both of which will help ensure 
taxpayers spend less on bureaucracy and more on students' education.
    However, we must be mindful that federal policies unrelated to 
education can still burden classrooms. The health care law is a prime 
example. At a time when we need to recruit the best teachers, train 
today's workers for the jobs of the future, and school leaders are 
trying to do more with less, imposing a fundamentally flawed and costly 
law on our schools is not in the best interests of teachers, parents, 
taxpayers, or students.
    I look forward to exploring this issue further with the help of our 
witnesses. With that, I now yield to my distinguished colleague George 
Miller, the senior Democratic member of the committee, for his opening 
remarks.
                                 ______
                                 
    Mr. Miller. Thank you, Mr. Chairman.
    Continuing the tale of two cities--
    [Laughter.]
    I want to thank the witnesses here--to begin with--for 
testifying today and appreciate your making time for this 
hearing. The goal of the Affordable Care Act is to provide 
affordable and quality health coverage for millions of 
Americans, regardless of whether they lose their jobs, 
regardless of whether they have pre-existing medical 
conditions, regardless of whether or not they can't afford the 
coverage.
    The ACA calls on everyone to do their part to make health 
care work better.
    Individuals are required to take personal responsibility to 
purchase health care coverage so that taxpayers and other 
policyholders don't have to foot the entire bill when they get 
sick. The federal government is doing its part by providing tax 
credits to those who can't afford to buy health coverage on 
their own. Large employers, the overwhelming majority of whom 
are already responsibly providing health care coverage to their 
employees, are being asked to include coverage for all full-
time employees.
    Hospital and health care providers are doing their part by 
finding innovating and low cost--less costly ways to 
successfully treat patients. The insurance companies who are 
now finally prohibited from skimming off the best risk and 
discriminating against those who have pre-existing conditions 
are stepping up and competing for customers on price and 
quality of services.
    The opponents of the ACA continue to claim that the 
employers across the country will shift full time workers to 
part time just under 30 hours because employer's responsibility 
rules. However, according to the Bureau of Labor Statistics, 
the BLS--since the ACA became law, nine out of 10 jobs created 
have been full-time jobs. The Bureau of Labor Statistics data 
also contradicts the claim that employers who are shifting 
employees just below a 30-hour threshold--there is no data to 
support this as a widespread practice.
    What is true is, the ACA is helping improve the labor 
market by limiting the growth of health insurance premiums, 
reducing job lock, providing small businesses with tax credits 
for providing the coverage. If everyone does their part we can 
transform and modernize the nations' health care system by 
tackling the escalating health-care costs by improving patient 
access and outcomes across the country, and by boosting long 
term economic success of employment in the medical sector.
    Local school districts and college, universities have long 
been successful partners with the federal government. We see 
this partnership in higher education to increase college 
access. Because of the leadership of this administration, and 
Democrats in Congress, the maximum award of the Pell Grants was 
increased 905 since 2008, and the number of Pell Grant 
recipients has expanded by 50 percent over the same time, 
providing college access to millions of low income and middle 
class students across the country.
    We see this partnership in K-12 education for elementary 
and secondary schools, Congress provided billions of dollars in 
extra help to improve school performance through Title I, IDEA 
and Economic Recovery Act. We see this partnership in early 
childhood.
    Just yesterday, we introduced a bipartisan legislation, the 
Strong Start for America's Children's Act, a landmark effort to 
improve and invest more in early childhood education. Democrats 
are also working closely with school districts to oppose the 
draconian sequestration budget cuts that threaten and have 
already cost tens of thousands of jobs, and to try to make an 
improvement in education quality. And now, we see this 
partnership in health care.
    Schools and colleges are large employers. In rural areas, 
sometimes, they are the only significant employer. The ACA is 
another opportunity for education institutions, as employers, 
to partner with states and federal government to ensure that 
their employees have health coverage that keeps them healthy 
and hard at work educating the nation's children.
    I hope today's conversation will be a constructive one, and 
we will welcome suggestions on how we can make these 
requirements work fairly for both employers and employees.
    Thank you again for your time, and appearing as witness.
    And Ms. Maisto, welcome.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    I want to thank the witnesses for testifying today. The goal of the 
Affordable Care Act is to provide affordable and quality health 
coverage for millions of Americans, regardless if they lose their job, 
regardless if they have pre-existing medical conditions, and regardless 
if they can't afford coverage.
    The ACA calls on everyone to do their part to make health care work 
better.
    Individuals are required to take personal responsibility to 
purchase health coverage so taxpayers and other policyholders don't 
have to foot the bill if they get sick.
    The federal government is doing its part by providing tax credits 
to those who can't afford to buy health coverage on their own.
    Large employers--the overwhelming majority of whom are already 
responsibly providing health care coverage to their employees--are 
being asked to include coverage to all full-time employees.
    Hospitals and health care providers are doing their part by finding 
innovative and less costly ways to successfully treat patients.
    And insurance companies--who are now finally prohibited from 
skimming off the best risks and discriminating against those who have 
pre-existing conditions--are stepping up and competing for customers on 
price and quality of service.
    Opponents of the ACA continue to claim that employers across the 
country will shift full-time workers to part-time, just under 30 hours, 
because of the employer responsibility rules.
    However, according to the Bureau of Labor Statistics (BLS), since 
the ACA became law, 9 out of 10 jobs created have been full time.
    BLS data also contradicts claims that employers are shifting 
employees just below the 30-hour threshold; there is no data to support 
that this is a widespread practice.
    What is true is the ACA is helping improve labor markets by 
limiting the growth of health insurance premiums, reducing job lock, 
and providing small businesses with new tax credits for providing 
coverage.
    If everyone does their part, we can transform and modernize the 
nation's health care system by tackling escalating health care costs, 
by improving patient access and outcomes across the country, and by 
boosting the long-term economic success and employment in the medical 
sector.
    Local school districts and colleges and universities have a long 
and successful partnership with the federal government.
    We see this partnership in higher education, to increase college 
access. Because of leadership by this Administration and Democrats in 
Congress, the maximum award for Pell grants has increased by $905 since 
2008, and the number of Pell Grant recipients has expanded by 50 
percent over that same time, providing college access to millions of 
additional low-income and middle-class students across the country.
    We see this partnership in K through 12 education. For elementary 
and secondary schools, Congress provided billions of dollars of extra 
help to improve school performance through Title I and IDEA through the 
Economic Recovery Act.
    We see this partnership in early childhood. Just yesterday we 
introduced bipartisan legislation called the ``Strong Start for 
America's Children Act,'' a landmark effort to improve and invest more 
in early childhood education.
    Democrats are also working closely with school districts to oppose 
the draconian sequestration budget cuts that threaten the progress 
we're making to improve education quality.
    And now we will see this partnership in health care. Schools and 
colleges are large employers. In rural areas, sometimes they are one of 
the only significant employers.
    The ACA is another opportunity for education institutions - as 
employers - to partner with states and the federal government to ensure 
that their employees have health coverage that keeps them healthy and 
hard at work educating the nation's students.
    I hope today's conversation will be a constructive one and we 
welcome suggestions on how we can make these requirements work fairly 
for both employers and employees in the education sector.
                                 ______
                                 
    Chairman Kline. The gentleman yields back. Thank you very 
much.
    Sometimes, it is, indeed, a tale of two cities, and that is 
why we have witnesses--pursuant to Committee Rule 7C, all 
committee members will be permitted to submit written 
statements to be included in the permanent hearing record. 
Without objection, the hearing record will remain open for 14 
days to allow statements, questions of the record, and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    It is now my pleasure to introduce our panel of witnesses.
    First is Mr. Gregory Needles. He is a partner with the 
Morgan, Lewis and Bockius, LLP in Washington, D.C.
    Welcome.
    Dr. Thomas Jandris is the dean of the College of Graduate 
and Innovative Programs at Concordia University Chicago, in 
Chicago, Illinois.
    Ms. Maria Maisto is the founder and president of the New 
Faculty Majority in Akron, Ohio, and we are very glad that you 
could make it. I--for all of--we know here--you don't know that 
she ran into our metro system. And the potential for Web site 
jokes is almost overwhelming me, but we are very glad that you 
made it.
    And Dr. Mark Benigni is the superintendent for the Meriden 
Public School System in Meriden, Connecticut.
    Before I recognize you to provide your testimony, let me 
briefly explain our very high-tech lighting system.
    You each will have 5 minutes to present your testimony. 
When you begin, the light in front of you will turn green. When 
there is 1 minute left, the light will turn yellow, and when 
your time is expired, the light will turn red. And I would ask 
that you try to move to wrap up your remarks. I am loathe to 
gavel down witnesses in their opening remarks, but we do have 
some time constraints here.
    After everyone has testified, members will each have 5 
minutes to ask questions. And I am less loathe to gavel them 
down.
    Mr. Needles, you are recognized for 5 minutes.

 STATEMENT OF MR. GREGORY L. NEEDLES, PARTNER, MORGAN, LEWIS & 
                   BOCKIUS, WASHINGTON, D.C.

    Mr. Needles. Chairman Kline, Ranking Member Miller, and 
members of the committee, thank you for the opportunity to 
participate in today's hearing. I am honored to appear before 
you today.
    This morning, I am going to briefly discuss the challenges 
that colleges and universities face as a result of the ACA.
    For colleges and universities, it is mainly what to do with 
adjuncts and student employees. Because adjuncts are paid by 
the course, they do not fit neatly within the ACA's hours-based 
determination of who is full-time versus who is part-time. 
While the IRS recognized this in the preamble to the proposed 
shared responsibility regulations, it deferred taking a 
position.
    It did make a passing reference, though, to a comment it 
received that an adjunct be credited 3 hours of service for 
every credit hour. Because of a lack of follow-up guidance from 
the IRS, many colleges and universities have adopted the 3-to-1 
equivalency referenced in the preamble.
    The result has been that in order to keep an adjunct at 
part-time status, and avoid having to incur the cost of having 
to provide him or her health benefits, colleges and 
universities are restricting adjuncts' course loads to 9 hours 
or less. As a consequence, adjuncts' course loads are being 
reduced, with a corresponding reduction in compensation.
    It is sometimes the case that an adjunct faculty member 
will teach courses at several different colleges on a part-time 
basis, and, in effect, cobble together a full-time teaching 
schedule. Where those colleges may be part of a state system 
that is governed by a single statewide board, they may be 
grouped together as a single employer for purposes of the ACA 
under its control group rules, despite being separate 
institutions that are operationally distinct from one another. 
The result is that part-time adjunct inadvertently become a 
full-time employee under the ACA.
    Because of the traditional autonomy of individual academic 
institutions, the control group rules really don't work when it 
comes to colleges and universities, and accordingly, they 
should not apply.
    As for students, under the ACA, those who work at their 
college or university are employees of the institution, and, as 
such, must be taken into consideration when applying the 
employer mandate. Most students, though, will be scheduled to 
work less than 20 hours a week as part of their work-study 
program, and fall within the ACA's part-time employee 
exception. However, there are instances in which work-study-
related students might also hold a second job with a college or 
university that is not related to work-study the program. And 
the hours aren't tracked, such as being an R.A., or resident 
assistant, which is what my nephew did at the University of 
Richmond to get through school.
    If the combination of two jobs results in the student 
working 30 hours or more a week, he or she will have to be 
counted as a full-time employee, even though the student may 
have access to health care through his or her parents' health 
plan until age 26, or through an ACA-compliant student health 
plan.
    There is no need to extend the protections afforded to 
other employees under the ACA to student employees, given their 
access to coverage elsewhere.
    At the end of the day, the issues described above have 
created uncertainty among colleges and universities. They have 
created challenges for the long-standing business models under 
which these institutions operate. What is clear from 
discussions with our clients, though, is that they do not 
intend to change the model. They can't afford to.
    If the equivalency for adjuncts is 3 hours of service for 
every credit hour taught, then adjuncts' hours will be cut, 
because the college cannot afford the cost of providing health 
insurance, or incurring the applicable penalty tax.
    If students who work 30 hours or more are required to be 
counted as full-time employees, then their hours will be cut. 
As a client said to me, the ACA is forcing us, typically well-
meaning employers, to make tough decisions that have negative 
consequences for our faculty and our students. And that can't 
be what was intended.
    Mr. Chairman, thank you for giving me the opportunity to 
testify this morning. I will be happy to answer any questions 
from the committee members.
    Thank you.
    [The statement of Mr. Needles follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
                                ------                                

    Chairman Kline. Dr. Jandris, you are recognized for 5 
minutes.

STATEMENT OF DR. THOMAS JANDRISS, DEAN, COLLEGE OF GRADUATE AND 
   INNOVATIVE PROGRAMS, CONCORDIA UNIVERSITY CHICAGO, RIVER 
                        FOREST, ILLINOIS

    Mr. Jandris. Chairman Kline and Representative Miller, 
distinguished members of the committee, I am grateful for the 
opportunity to make some important remarks to you.
    My name is Tom Jandris. I am the senior vice president and 
dean of the Graduate School of Concordia University Chicago, 
and the proud namesake of this Jandris Center for Innovation at 
the University of Minnesota.
    Concordia University is a 150-year-old Lutheran university 
based in the Chicago metropolitan area. We serve 5,000 
students, 4,000 of which are graduate students, students in 38 
states and 18 foreign countries, as well as in the Chicago 
metropolitan area.
    We are the fifth-largest graduate school in Illinois. And 
we serve primarily first generation graduate students. That is, 
students whose family has never had another graduate student in 
the history of the family come through higher education.
    We also represent a predominance of students who are 
frequently underserved, communities and populations with 
limited access to graduate education.
    Our ground-based programs are not only in the Chicago 
metropolitan are, but have major concentrations in New York 
City, Ohio, Oregon, and other locations of that sort.
    Our major emphasis is on programs leading to advancement, 
employment, and/or increased earning potential for our 
frequently-underserved students.
    Affordability, flexibility, and convenience for our 
students are major priorities for us, and are the hallmarks of 
what has contributed to our remarkable growth.
    My college, the largest college at my university, with 
4,000 graduate students, is one of the largest colleges in 
Illinois providing graduate services to students. We have 4,000 
graduate students and 300 undergraduate students, 
interestingly, studying in my college who are adult learners, 
all the way up, until this term, 78 years old.
    We also provide 56 degree and certificate programs. And we 
are recognized by accreditors nationally as a 150-year-old 
institution.
    I mention those data points because they represent the need 
for us to have nearly 500 full-and part-time faculty serving 
the numbers of students across the world that our university 
and my college serve. Only 71 of those nearly 500 full and 
adjunct faculty are tenure-tracked faculty members. The large 
preponderance of them--nearly 400 of them--are non-tenure-
tracked part-time and/or adjunct faculty, sometimes referred to 
as contingent.
    We also have 27 staff employees, several dozen student 
workers, graduate assistants, teaching assistants, and other 
students who are deeply affected by the consequences of the 
implementation of the Affordable Care Act.
    There are several important unintended consequences of the 
Affordable Care Act that impact our programs, students and 
faculty. We are already in deep discussions about having to cap 
the teaching loads for our part-time adjunct and contingent 
faculty at Concordia.
    The annual employee cost, if we were not to cap the workers 
for these--or the loads for these 400--or 200 faculty members 
would be almost $12,500 per year for each part-time faculty 
member in the provision of the necessary insurance mandated by 
the law. That would result in nearly a million-dollar swing in 
additional expense to my college, an expense that we could 
little afford. It represents, actually, the jobs of 44 adjunct 
employees that we would be unable to provide. That is nearly a 
30 percent, or 27.9 percent increase in our overall benefits 
expense in my college.
    Since we don't get any state aid for the support of my 
college, every tuition dollar should go back into our programs.
    The CUC will be forced to set limits and caps on the 
numbers of hours that can be taught by our contingent faculty, 
and thus, significantly limit, even reduce, their earnings. 
Some states are already reducing those earnings dramatically, 
as has been already pointed out.
    But it is not only contingent faculty that will be 
affected. It is our students. It is our staff, our custodial 
staff, part-time coaches and others who will be deeply affected 
as a consequence of the limitation on the numbers of hours that 
they can work.
    So we are asking for four things from this committee: a 
thorough, accurate and detailed review of the unintended 
deleterious impact of the ACA on universities, colleges' 
faculty, staff and students; second, based on the results of 
that review, rules, procedures and definitions be developed in 
order to insulate these groups from the dire consequences; 
third, that colleges and universities be provided with clear 
definitions and standards for identifying employees and others 
who may be impacted by it; and finally, at all costs, that the 
evolution of the implementation of the law ensure that no 
unnecessary or additional economic burdens be placed on 
students, especially those who are least able to manage to be 
able to afford those increases that we would have to pass on.
    Thank you for the opportunity to be with you today.
    [The statement of Dr. Jandris follows:]

                      THE AFFORDABLE CARE ACT AND

                           HIGHER EDUCATION -

                        UNINTENDED CONSEQUENCES

                     ANNOTATED OUTLINE OF TESTIMONY

                  HOUSE COMMITTEE ON EDUCATION AND THE

                               WORKFORCE

                                   BY

                       THOMAS P. JANDRIS, Ph.D.,

           Senior Vice President & Dean of Graduate Programs

                      Concordia University Chicago

                      Thursday, November 14, 2013

    Mr. Chairman and members of the committee, I am grateful for the 
opportunity to testify before you today on this important matter as a 
Senior Vice President and Dean of a large and rapidly growing graduate 
school at a private university. The matters I intend to discuss 
regarding the unintended consequences of the implementation of the 
Affordable Care Act on higher education are of great importance to me, 
to my institution and to other colleges and universities across the 
country.
    The University I represent, Concordia University Chicago, is a 150-
year-old, private, Lutheran University located in the suburbs of 
Chicago, Illinois. Concordia enrolls over 5000 students with over 4000 
of them being graduate students. We are proud to be recognized as the 
fifth-largest private graduate school in Illinois. Our growth has been 
remarkable, especially over the last seven years. One of the reasons 
for that growth is that we have refocused our institution's mission on 
serving primarily first-generation graduate students and students 
representing frequently underserved communities and populations. In our 
ground-based, face-to-face instruction program we teach students in 61 
separate locations in the Chicago area. We do this in order to ensure 
that the opportunity to attend graduate school is as convenient and 
cost-effective for working adults as we can make it. We provide similar 
services and programs in many states but in particular to high 
concentrations of students in New York City, Ohio and Oregon. Our 
programs have a major emphasis on leading to advancement, employment 
and increased earnings potential for our students. Our programs are 
marked by being affordable, flexible and convenient.
    Concordia University Chicago is comprised of four separate 
colleges. The College I represent is the largest of the four. It is the 
College of Graduate and Innovative Programs. As I said earlier, my 
College has over 4000 graduate students and 300 adult, undergraduate 
students studying in over 56 degree and certificate programs. Several 
of those programs are recognized by accreditors and others as 
nationally exemplary programs. In my College we employ over 500 full 
and part-time faculty. We also employ 71 full-time, tenure-track 
faculty and over 400 non-tenure track, part-time, and or adjunct 
faculty, sometimes referred to as contingent faculty. We have 27 full-
time staff employees; several dozen student workers, such as graduate 
assistants, teaching assistants, and others. As a consequence of our 
review of our human resource records and teaching assignments, we have 
discovered that nearly 200 of our non-tenure track faculty could be 
affected by the 30 hour rule of the affordable care act. Most of my 
remaining comments will be focused on the unintended, negative 
consequences of the Affordable Care Act, as it currently exists, on 
those 200 non-tenure track faculty, students and the College.
    First, there is a significant financial burden resulting. Based on 
our understanding of the Act and upon the advice of counsel it is 
estimated that if Concordia University Chicago fails to comply with the 
Act it will be exposed to potentially significant penalties, perhaps 
2000 per employee per year. The cost could even be as high as $3000 per 
employee per year.
    Concordia University, as well as many other colleges and 
universities across the country, are working hard to appropriately 
respond to the opportunities and constraints of the Affordable Care Act 
on our finances and operations. Concordia University Chicago is 
currently assessing the impact of putting a cap on teaching loads for 
part-time, adjunct and contingency faculty. Without this cap, our 
estimate is that the annual insurance cost per identified employee 
would be an additional 12,500. Given the number of part-time faculty 
who may be affected, that would result in nearly $1 million of 
increased employee benefit costs to my College alone. That would 
represent a 27.9% increase in our overall benefits expense. If we were 
to pass on that cost to students, the tuition increase would be 
substantial, especially to those students least able to afford it.
    According to the National Education Association, ``Contingent 
faculty members get paid little as it is and cutting their work hours 
will make it even harder for them to make ends meet. But cutting their 
hours could also mean that experienced faculty members teaching 
multiple courses will have to give up courses that will be taught 
instead by new, inexperienced faculty; that would hurt students by 
depriving them of experienced faculty.'' For the NEA to take this 
position in admitting the potential deleterious effect on students of 
the ``caps,'' is of great significance, we believe. Concordia 
University Chicago would prefer not to have to cap the instructional 
hours that we make available to our contingent faculty. The impact on 
faculty earnings as well as on our students would be painful. Some 
states are already reducing teaching hours. Indiana for example has 
reduced hours in state schools to 12 per semester for adjuncts and 
Michigan has made a reduction to 10 hours per semester.
    However, it is not only contingent faculty who will be affected by 
the implementation of the Affordable Care Act. Concordia University 
Chicago will be forced to consider cutting the hours of other staff and 
even student workers. In a study recently completed by the Center for 
Digital Education, it was concluded that, `` Part-time administrative, 
health, custodial, and even students will be deeply affected.''
    So with all due respect, I come before you to seek only for 
relatively simple things from this committee:
         We would like to see the Committee strongly suggest that a 
        thorough, accurate and detailed review of the unintended, 
        deleterious impact of ACA on universities, colleges, faculty, 
        staff, and students be undertaken.
         We are also hoping that, based on the results of that review, 
        rules, procedures and definitions would be developed in order 
        to insulate these groups from dire consequences.
         Thirdly we would hope that the Committee would suggest that 
        colleges and universities be provided with clear definitions 
        and standards for identifying employees and others who may be 
        impacted by the act.
         Finally, at all costs, that the Committee help to ensure that 
        the evolution of the implementation of the Act results in no 
        unnecessary or additional economic or opportunity burden to be 
        placed on students-especially those who are least able to 
        manage them or who have been historically among those groups 
        most overlooked.
    I am grateful and honored to have had this opportunity to express 
our point of view.
    Thank you for your time and consideration.
                                 ______
                                 
    Chairman Kline. Thank you.
    Ms. Maisto, you are recognized for 5 minutes.

STATEMENT OF MS. MARIA MAISTO, PRESIDENT, NEW FACULTY MAJORITY, 
                          AKRON, OHIO

    Ms. Maisto. Thank you.
    Good morning, Chairman Kline, Ranking Member Miller and 
members of the committee. Thank you for the opportunity to 
speak here today. I am very grateful that I could be here.
    My name is Maria Maisto and I am the president of New 
Faculty Majority and executive director of its affiliated 
foundation. We are the only national nonprofit organization 
dedicated exclusively to improving the quality of higher 
education by improving the working conditions of the majority 
of the faculty, often known as adjuncts, who work in temporary, 
precarious positions while teaching over half of all 
undergraduate courses in higher education. This majority is now 
75 percent of the faculty, or over 1 million professors.
    Just over 50 percent of college faculty, more than 800,000 
college professors, are classified as part-time. At community 
colleges, 70 percent or more of the faculty are part-time. 
Indeed, at the community college where I teach this semester in 
Ohio, the percentage of part-time faculty has grown from 10 
percent in 1995 to 76.3 percent in 2009. Adjunct faculty are 
paid by the course and the national average compensation is 
$2,700 per course.
    Many adjuncts teach as many or more courses than full-time 
professors, but make less than $25,000 per year, the same 
salary, according to one of my students, that a high school 
dropout can earn as the manager of a fast-food restaurant.
    Only 22 percent of college employers provide health 
benefits to their part-time faculty, according to a 2010 
survey. Colleges rarely provide sick leave. In fact, most 
adjuncts are docked pay for absences. They provide minimal or 
no retirement benefits and they frequently block access to 
unemployment compensation.
    A survey that we did 2 years ago showed that anywhere from 
30 percent to 60 percent of faculty in these positions are 
assigned courses with three weeks or fewer to prepare, with 
scant access to the resources they need to teach like course 
materials, computers, permission to be involved in curriculum 
decisions, and offices in which to meet students.
    Adjunct faculty teach every day with the threat of at-will 
dismissal and with little recourse to due process rights we 
typically expect professionals to have.
    Thanks to the ACA, many adjuncts will now have health care 
or more affordable health care for the first time since they 
started teaching. However, as you may know, since the ACA has 
become law, some college and university administrations have 
been in the news for reducing part-time faculty work 
assignments or for redefining their work in order to avoid 
providing insurance.
    Some people would have us believe that the ACA is giving 
these colleges and universities no choice but to enact these 
policies. I am here to correct that misperception. It is not 
the ACA, but rather these colleges' interpretation of and 
response to the law that is hurting adjuncts and their 
students. Colleges have lots of choices and unfortunately for 
their students, too many have chosen not to support or invest 
in faculty.
    Unfortunately, this kind of policymaking, one that values 
misguided notions of labor productivity and managerial control 
over the educational mission at the core of higher education, 
is increasingly typical of the way that colleges and 
universities operate. It is the reason that the Association of 
American Colleges and Universities has called contingent 
faculty employment practices the, quote--``elephant in the room 
of higher education.'' It is the reason that the president of 
Colorado State University has made a public commitment to 
improving the working conditions of adjunct faculty on his 
campus.
    It is the reason adjunct faculty are now unionizing in 
rapidly growing numbers at campuses all across the country. Too 
many higher education institutions have been making harmful 
choices for decades in deciding to balance their budgets on the 
backs of faculty and the students they serve. Students have 
noticed and they are not happy about it, not least because of 
the debt into which they go in order to get a college 
education.
    Yet most institutions still expect adjunct faculty to 
donate their time, resources and expertise to compensate for 
the support that these colleges have chosen not to provide. Our 
operating principle at New Faculty Majority is that faculty 
working conditions are student learning conditions. This 
principle is why I helped start this organization and not just 
because I have taught English composition for more than 15 
years, but because my three children are future college 
students.
    Access to health care is a crucial component of the working 
conditions of the majority of the faculty and is therefore a 
crucial component of the quality of the student learning 
experience. Faculty members who do not have access to health 
care or to the other professional supports that all faculty 
need, are being set up for failure, as are their millions of 
students.
    That so many adjuncts do their job so well in spite of 
their working conditions, rather than because of them, is a 
testament to their professionalism and dedication, but they 
should not be in this position.
    We hope that the light that has been shined on this dark 
secret of higher education as a result of the passage of the 
Affordable Care Act will continue to grow brighter and will 
lead to the reforms that these faculty, their students, and our 
country urgently need in order to ensure that American higher 
education is truly of the highest quality possible.
    Thank you.
    [The statement of Ms. Maisto follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
                                ------                                

    Chairman Kline. Thank you.
    Dr. Benigni, you are recognized.

   STATEMENT OF DR. MARK D. BENIGNI, SUPERINTENDENT, MERIDEN 
              PUBLIC SCHOOLS, MERIDEN, CONNECTICUT

    Mr. Benigni. Thank you.
    I would like to thank Chairman Kline, Ranking Member Miller 
and all the distinguished congresswomen and congressmen for the 
opportunity to testify about the challenges that school systems 
are facing with the Patient Protection and Affordable Care Act.
    My name is Mark Benigni, and I am the superintendent of 
schools in Meriden, Connecticut. I am an AASA governing board 
member, the co-chair of the Connecticut Association of Urban 
Superintendents, and a former mayor of the city of Meriden.
    The Meriden public schools are home to over 1,100 employees 
and over 9,100 students. Our students come from diverse 
backgrounds; 65 percent of our students are minorities and 70 
percent of our students receive free and reduced-price meals. 
We have received no local budget increase in 5 years, reduced 
federal funding, and significant increases in our health care 
costs. This has forced us to operate our school system with 
less funding for students and programs.
    So why are we concerned and why am I here today? At a time 
when student needs are increasing, budgets are shrinking, and 
state and federal mandates escalating, we cannot effectively 
sustain these significant health care expenses. This will cause 
us to cut staff, reduce programs, minimize current health care 
plans, cut employee hours, and consider outsourcing current 
services. It will be our students who lose out.
    Beginning in July 2011, the Affordable Care Act required 
that we make changes to the benefits covered by our plan and 
eligibility rules for who is covered by our plan. Amongst other 
items, this includes benefit items such as no cost-share for 
preventive care, women's health initiatives, and in-network 
out-of-pocket cost limits. Additionally, we are now required to 
cover children until age 26, expanding our previous eligibility 
criteria by as much as 6 years.
    Our health plan administrator's estimate the cost impact 
for these benefits and eligibility requirements to range 
between 1 to 3 percent of our total plan costs. For the city of 
Meriden and the board of education, this could be as much as 
$900,000 a year; impact on the board of ed alone, up to 
$570,000. To put this into perspective, this equals an impact 
of over five teaching positions.
    Additionally, our personnel and financial staff will absorb 
many additional reporting and communication requirements. While 
not having a direct impact on the cost of our health plan, it 
will impact our employee workload. These reporting, 
notification and enrollment responsibilities include 
distribution of health exchange notices, summary of benefits 
and coverage, new W-2 reporting, auto-enrollment of members 
into the plan, and ongoing tracking of affordability and 
minimum coverage. This additional workload could potentially 
force us to hire new staff to address these mandates.
    Beginning in 2014 and beyond, our community will be subject 
to additional taxes to support Affordable Care Act initiatives 
and exchange and marketplace costs. The taxes are projected to 
be $150,000 annually, costing us two more teaching positions. 
These taxes include the comparative effectiveness research fee 
and the Affordable Care Act reinsurance fee. In 2018, the 
excise tax will have a significant fiscal impact on us, which I 
will go into detail more in a moment.
    Beginning in 2015, the accessibility and affordability 
requirements will require us to offer coverage to at least 95 
percent of our full-time employees working 30 hours or more and 
their dependents, or be subject to penalties. This will impact 
us with our substitute teachers who are not currently 
considered board of education employees. Additionally, the 
benefits provided by our plan must fund at least 60 percent of 
projected costs covered by the plan and the employees' cost for 
coverage cannot exceed 9.5 percent of their wages. We project 
the costs for us to comply with these accessibility and 
affordability requirements to be $1.2 million in 2013 dollars, 
worth another 16 teaching positions.
    In addition to the fiscal impact are the staffing 
implications I mentioned earlier, it will force us to make some 
tough decisions around people we have hired. We will need to 
intervene with some staff that have elected higher wages for 
nonbenefit-eligible positions. We will need to decide if we 
eliminate these positions altogether, reduce their hours, or 
decrease their wages in order to offer insurance. We will need 
to intervene with our bargaining groups over contracts that 
were negotiated in good faith. It will force us to make 
difficult political and community decisions on deciding whether 
we will offer coverage to nonbenefit-eligible positions or 
accept potential penalties. The public will want us to explain 
why we are potentially accepting penalties in lieu of offering 
our hardworking employees affordable coverage.
    These new requirements will compel us to make difficult 
decisions around plan design and level of coverage. Our current 
2,000 single and $4,000 family high-deductible plan exceeds the 
60 percent coverage criteria, coming in at 77 percent. When 
looking at expanding coverage, if we elected and chose to offer 
a low-cost plan option, we would need to raise those 
deductibles to as much as $6,350 a single and $12,700 for a 
family plan.
    Another obvious alternative for us to consider is to limit 
hours for some positions below the 30-hour threshold, or hire 
multiple part-time people for what have traditionally been 30-
hour plus positions.
    Chairman Kline. Dr. Benigni, I am going to have to ask you 
to wrap up as quickly as you can.
    Mr. Benigni. The cost exposure, if we were to accept 
accessibility and affordability penalties are considerable. The 
access penalty of $2,000 per employee less the first 30 would 
be 2 million for the Board of Education in Meriden. That would 
be an additional 27 teaching positions.
    If these are all are not enough concerns, the excise tax on 
high-cost plans has us alarmed. The excise tax is really a 
double hit to us, as the other requirements of the Affordable 
Care Act drive up the cost of the plan, which in turn, drives 
the excise tax.
    I thank you for your time and attention.
    [The statement of Dr. Benigni follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
                                ------                                

    Chairman Kline. Thank you.
    I thank all the witnesses.
    I am going to defer my questions, and recognize now Dr. 
Foxx for 5 minutes.
    Ms. Foxx. Thank you, Mr. Chairman. And I want to thank the 
witnesses for being here today and participating in this 
extremely important hearing. We appreciate your taking the time 
to do that.
    Mr. Needles, in your experience representing colleges and 
universities, did the administration's decision to delay 
enforcement of the employer mandate for 1 year, provide any 
relief to these employers? Did it encourage employers to stop 
making business decisions now and wait until mid-2014 to make 
tough decisions like cutting hours for their contingent staff?
    Mr. Needles. No, our experience has been that it did 
provide relief to the extent that they had already started the 
process, and they were well down the road. So, they were making 
business decisions. That is why they were seeking our counsel 
as to what they could do under the parameters of the ACA.
    What it did do, though is, instead of having to 
accelerate--and there was a lot of fear that they would have to 
get things in place by the end of 2013, and how that would 
look, particularly with open enrollment that occurs in October 
and November of every year. It was a lot of fear that they 
would not be able to make all the decisions in a rational way.
    So, by extending it a year, that has helped them to take a 
more measured approach, but it is not changing the decisions 
that they are making. It is just--perhaps the implementation is 
getting delayed a fraction.
    Ms. Foxx. [Off mike.]--as 61 locations. And it is because 
you are delivering education in locations that are nearest to 
the students, which significantly increases their ability to 
persist and complete their programs. Can you discuss what 
impact the health care law may have on your ability to deliver 
post-secondary education in this manner?
    Mr. Jandris. Sure. Thank you, Representative Foxx.
    The 61 locations are not campuses, by the way. They are 
rental facilities around the Chicago metropolitan area that we 
use on a semester-by-semester basis.
    Many of those are staffed by our contingent faculty in the 
Chicago metropolitan area. Since we are a completely tuition-
dependent university with a very small endowment, and literally 
no state aid coming into our university, every dollar we 
reallocate to any other expense is taken out of the 
instructional program. And so, if we are forced to absorb, say, 
the million-dollar swing that compliance with the Affordable 
Care Act would take, we would have to dramatically limit the 
numbers of adjuncts we had available to go to those 61 
locations.
    We would also have to limit our ability to pay the rents 
and other related expenses to operating those locations. And I 
am sure that the consequence would be a very significant 
reduction in the numbers of students who were able to 
participate in those programs. Because almost all of our 
students--92 percent of our students--are adult working 
students. And the accessibility to the location for their 
instruction is extremely important to their ability to 
persevere in our program.
    Ms. Foxx. Well, thank you very much. And thank you for 
taking the programs to the students. That is not a totally 
unique idea, but certainly for a small school to be operating 
so many different places, that is a real testament to you for 
doing your best to fulfill your mission, to be where the 
students are.
    So, as someone who worked in higher education for a long 
time and understands that issue very well, I appreciate what 
you are doing.
    Mr. Jandris. Thank you, ma'am.
    Ms. Foxx. Thank you.
    Mr. Needles, while I think we know somewhat the answer to 
this question, if you have some additional insights to us, in 
what are you hearing from colleges and universities about the 
other long-range concerns of limiting their hours of contingent 
faculty?
    Mr. Needles. Yes. We haven't been asked that question yet. 
Because I think the focus right now is to deal with the 
immediate. And that is, to make sure that they are compliant. 
And, remember, I think until June or July, they thought they 
would have to be compliant by the end of this year, which, 
again, meant October.
    So, they are still, you know, focusing on those immediate 
needs and short-term needs. I don't think they have started 
thinking about the long-range planning and impact at this 
point. At least, it hasn't been--they haven't asked us to 
advise them on it.
    Ms. Foxx. Thank you, Mr. Chairman. I yield back.
    Chairman Kline. I thank the gentlelady for yielding back.
    Mr. Miller, you are recognized.
    Mr. Miller. Thank you very much, Mr. Chairman.
    This may be the most in-depth discussion we have had of 
adjunct professors in the history of the committee. It may also 
be the first time we have had this discussion of this matter. 
And I am not quite clear yet about the status here.
    Ms. Maisto, this rule of three-to-one--is that considered--
and, Mr. Needles, I would like you to respond after Ms. 
Maisto--is that policy? Is that--that is the proposal. Is that 
being challenged? Or are recommendations being made about how 
to deal with this, based on--Ms. Maisto and Mr. Needles?
    Ms. Maisto. Yes, this is not a question that has been 
settled. We have been involved in the conversation with the IRS 
and the rulemaking process to try and figure out the most 
accurate way to do the conversion formula to figure out how to 
translate credit hours, which is how adjunct faculty work and 
full-time faculty work have always been measured--to translate 
into hours worked per week.
    The problem is that the formula that has been recommended 
by many colleges, and, in fact, adopted by my own college, is a 
one-to-one ratio. Which presumes 1 hour of work outside of 
class for every hour of time you are in class--which is so far 
from the reality of what faculty need to do in order to supply 
enough quality higher education that it is extremely troubling. 
And it seems to be that formula is being used in order to avoid 
having to provide insurance.
    What we would like to do is have a national conversation 
about what adjunct faculty work actually is, what faculty work 
actually is. What you need to be able to do in order to provide 
quality education. And does--the passage of the Affordable Care 
Act has actually made it possible for us to start having that 
conversation.
    Mr. Miller. Let me just go to Mr. Needles quickly, because 
I want to come back to you--
    Ms. Maisto. Yes.
    Mr. Miller.--for another subject.
    Mr. Needles?
    Mr. Needles. Yes. It is not a rule or a law yet. It is only 
found in the preamble of the IRS's regulations
    Mr. Miller. Right.
    Mr. Needles.--the three-to-one ratio. But they passed a--
they made the comment that they--well, they said that they 
received a comment from somebody. And typically, when they do 
that in their preambles, they are sending a signal as to what 
they favor. So, in reaction to that--
    Mr. Miller. Do you recognize the validity of the comment 
they accepted? Or were they just taking--
    Mr. Needles. Well, I think what my--what--
    Mr. Miller.--was available?
    Mr. Needles. What our clients have done is, they felt that 
is probably the most conservative approach they can take, and 
not get into trouble with the IRS. So, that is the position 
they have chosen to take.
    Mr. Miller. I was going to say, we haven't had a broad 
discussion on this topic in this committee. My personal 
experience is, I think I had a nephew that was working in two 
community colleges as he was teaching three different schools 
within those two districts.
    But this kind of raises a question. You know, we have been 
here dealing with student indebtedness, the rise in college 
cost, the states not holding--with respect to public 
institutions, not holding up their end of the bargain, so to 
speak, the decline from state assistance of 75 percent to 6 
percent in some states, and certainly, single digits in a 
number of other states. And at the same time, we see the 
discussion of how you earn your place on the U.S. and News 
World Report. You have got to build a student lounge, you have 
got to build a cafeteria, you have to have 13 different kinds 
of food, and you have to have a climbing wall and a 24-hour 
exercise center. And then maybe you will boogle up a notch.
    So, there are a lot of costs incurred out here in the name 
of lifestyle.
    Ms. Maisto. Mm-hmm.
    Mr. Miller. And, yet, when we get down to the people who 
are teaching, as you point out, the vast majority of the 
classes, all of a sudden, we got to skimp. I don't--I just 
don't--
    Ms. Maisto. Right.
    Mr. Miller.--the juxtaposition here. And not every college 
has embarked on this. And certainly, community colleges, it is 
a much different base to do this from.
    Ms. Maisto. Yes. Well, you know, one of the things that we 
are especially grateful for is that the IRS actually solicited 
comments and made it possible for us to explain what the nature 
of our work is and how it should be calculated. That is not 
something that colleges and universities typically do. It is 
very rare for colleges and universities to actually to involve 
adjunct faculty in any kind of governance. And that, we think, 
is a mistake, because faculty, after all, are dealing with 
students every day, and are the ones who are closest to them, 
and who know what they need. If they are not supported to be 
able to support those students, then the students suffer. And 
that is--so, we have been very grateful for the fact that we 
have been part of this conversation, and--and that it is really 
bringing to light the working conditions of adjunct faculty 
more generally, which need to be addressed, and which has been 
a problem since long before the Affordable Care Act came onto 
the scene.
    Mr. Miller. Thank you very much.
    In my second round, I will ask you another question.
    Chairman Kline. Thank the gentleman.
    Mr. Walberg is recognized.
    Mr. Walberg. Thank you, Mr. Chairman. And thanks to the 
panel for being here.
    I believe it was Steve Jobs who had a slogan: ``If it's 
your problem, it's our problem.'' And I think it is important 
for us to hear the practical ramifications of the Affordable 
Care Act to our educational systems. And so, thank you for your 
insights.
    Dr. Jandris, earlier this year, I had the privilege of 
hosting a seminar symposium for more than a dozen presidents of 
independent colleges and universities surrounding my district 
in Michigan. Schools that you may be well aware of, like Spring 
Arbor University, Albion, Alma, Mercy Memorial, Mercy Hosp--not 
Hospital--University Concordia was involved from Ann Arbor 
area, also schools like Adrian, Siena Heights University. And 
their biggest concern, as we talked at that time a number of 
months ago, was what would be the impact upon education, 
students and faculty involvements, but education specifically 
because of the Affordable Care Act, which was a health care 
issue. And so it is interesting hearing your testimony today.
    And so I guess I would like you to expand on what would a 
requirement to provide adjunct professors with health coverage 
do to your staffing costs in more specifics. And if these 
expenses were beyond a college's budget, would this require 
them to raise tuition, among other things?
    Mr. Jandris. Thank you, sir. As a part-time resident of 
Cass County, Michigan, I am very familiar with those colleges 
and universities.
    I can tell you that Concordia University is not one of 
those institutions that has climbing walls in our facilities. 
In fact, our dormitories are not even air conditioned. We put 
every single dollar we have available into instruction and the 
quality of instruction and to serving students where they can 
be served conveniently for their purposes.
    In our university, the expense of providing what we believe 
to be, because the rules are still ambiguous, what we believe 
to be would be required insurance coverage to the adjuncts 
would actually cause us to have to either reduce adjuncts by 
almost 10 percent, and therefore limit our ability to provide 
the services that we provide in remote areas now.
    We do, by the way, use the three-to-one ratio at Concordia 
for what identifies the working conditions of our adjuncts. 
Adjuncts are truly the lifeblood of our institution and we 
recognize that. But also, we would have to reduce, for example, 
technology services. Every dollar we spend one place at our 
institution, we have to take from somewhere else.
    Mr. Walberg. So we are talking there of quality of service?
    Mr. Jandris. Absolutely, quality--
    Mr. Walberg. Education and value to the students.
    Mr. Jandris.--absolutely, absolutely. And not only the 
quality of service, but the availability of service would have 
to be diminished.
    Mr. Walberg. Dr. Benigni? I hope I said that right.
    Mr. Benigni. Perfect. Thank you.
    Mr. Walberg. And Meriden, right?
    Mr. Benigni. Meriden, right.
    Mr. Walberg. Okay. As a former mayor of Meriden, current 
superintendent, review in a little more detail how the 
Affordable Care Act affected or is affecting your employees 
right now. And how has it impacted your budgeting and financial 
resources?
    Mr. Benigni. Sure. I think a few things. The excise tax, if 
we start there, our co-pay plans on single-families and family 
plans are already over the thresholds. So that would be a major 
concern. Our HSAs with the 25 percent negotiated and agreed 
upon with our union reduction, in 2014 would break those 
thresholds as well.
    Mr. Walberg. And these are agreed-upon plans?
    Mr. Benigni. Agreed-upon plans with union members at the 
table negotiating with us. And I guess the bigger concern would 
be in 2018, it would be a $2.6 million hit to my budget just to 
meet the thresholds as they stand now. And that is a 
substantial amount of people because 90 percent of my operation 
is staff, putting teachers and paras and behavior techs in 
classrooms with kids, the money needs to come from somewhere.
    Mr. Walberg. $2.6 million--
    Mr. Benigni. In 2018.
    Mr. Walberg.--one local public school district.
    Mr. Benigni. Yes.
    Mr. Walberg. Quality and value--
    Mr. Benigni. The other thing that we would need to take 
into consideration is for some of our employees, we would 
actually have to reduce the coverage they are getting now 
because they take a low-paying job, but with a very good health 
plan. Well, this Affordable Care Act would force us to evaluate 
the type of health plan we provide them or look at outsourcing 
some of these services as well.
    Mr. Walberg. Low-paying job, less care on the health plan 
as a result of this.
    Thank you. I yield back.
    Chairman Kline. Yes, the gentleman's time has indeed 
expired.
    Mr. Andrews is recognized.
    Mr. Andrews. Thank you, Mr. Chairman.
    I thank the witnesses for their testimony this morning.
    Dr. Jandris, of the 200 employees you are worried about 
that you mentioned in your testimony, how many of them are 
adjunct or part-time faculty?
    Mr. Jandris. That is the number of adjuncts; the 200 that I 
am worried about are adjunct employees.
    Mr. Andrews. Okay. How many credit hours do they teach per 
semester?
    Mr. Jandris. There is a wide range of credit hours. We have 
several classifications of contingent employees based on the 
numbers of hours they take when we do a look-back on an annual 
basis. Some of them will teach as many as, in some instances, 
24 hours in a semester.
    Mr. Andrews. Twenty-four credit hours?
    Mr. Jandris. Yes, or eight classes in a semester. We run on 
an all-year calendar-year basis, so sometimes--
    Mr. Andrews. What would you say the average is?
    Mr. Jandris. The average I would say is probably nine a 
semester.
    Mr. Andrews. Okay. So for those that hit the average with 
the three-for-one rule, they are clearly not subject to the 
employer mandate. Right?
    Mr. Jandris. Well, they may not be. I wouldn't use the word 
``clearly,'' with all due respect.
    Mr. Andrews. Well, the law is 30 hours a week and they are 
at 27 under that. If that becomes the formula, they are at 27, 
right?
    Mr. Jandris. If that becomes the formula. We still are 
unclear as to whether or not we are going to have to count 
driving time for our adjuncts and--
    Mr. Andrews. I understand. I understand. But assuming that 
is the formula, that would be the case.
    Mr. Jandris. Yes.
    Mr. Andrews. How many of the 200 would then be exempted by 
that measure?
    Mr. Jandris. I don't have that number right in front of me. 
A fair number, 20 to 50 percent. I am not sure.
    Mr. Andrews. Okay. Let's say it is 35 percent. Say the 
other two-thirds would come in at over 30 hours per week. How 
much money do they make for teaching that load?
    Mr. Jandris. We actually pay the exact average that was 
commented on earlier, which is $2,700 per course for a 3 
semester-hour course.
    Mr. Andrews. Okay. So if they taught 10 credit hours--no, 
per course. If they taught 10 credit hours that were around 3 
each, it would be $8,100 per semester. How many semesters do 
you have in a year? Two?
    Mr. Jandris. I am sorry?
    Mr. Andrews. How many semesters in a year?
    Mr. Jandris. We teach three semesters.
    Mr. Andrews. Three. So if someone taught that for three, 
they would make about $24,000 or $25,000.
    Mr. Jandris. That is correct.
    Mr. Andrews. What do you think we should do to provide 
health insurance for that person? How do you think that person 
should be able to obtain health insurance?
    Mr. Jandris. Our hope is, quite frankly, that after this 
kind of discussion, which is so helpful, that in fact the rules 
for implementation of the law will raise the threshold to 40 
hours.
    Mr. Andrews. Okay. So you would not insure them. Who would? 
And how would it be paid for?
    Mr. Jandris. That is a question I am not prepared to answer 
at this point.
    Mr. Andrews. Well, I think the country has to be prepared 
to answer that question in some way. A person making $24,000 or 
$25,000 a year in Chicago, I assume would not be able to afford 
any of the insurance products on the regular market, would 
they?
    Mr. Jandris. I can't answer that question. I don't know.
    Mr. Andrews. I think the answer is rather self-evident.
    Would you favor a system where that person could go into a 
marketplace, buy private insurance, and receive some kind of 
tax credit or subsidy to help them buy insurance?
    Mr. Jandris. In principle, I would covet such a system.
    Mr. Andrews. That is the Affordable Care Act. So, you 
wouldn't be in favor of repealing that provision for a person 
in that situation, would you?
    Mr. Jandris. We didn't ask the committee to discuss 
repealing. We asked the committee for clarification and 
consideration in relationship--
    Mr. Andrews. I understand that, but our work and your work, 
too, is about human beings and we are positing here a person 
who is making $24,000 or 25,000 a year, who by your account 
would not receive coverage at work. Do you think the person 
should have health insurance?
    Mr. Jandris. I think every American should have health 
insurance.
    Mr. Andrews. I agree with you. And so one of the ways we 
could do that, of course, would be to set up a marketplace 
where that person could go buy insurance of their choosing and 
receive a subsidy to help them pay for it, which I assume you 
think that is a pretty good idea.
    Mr. Jandris. As long as it is not paid for on the backs of 
our students and the adjunct faculty.
    Mr. Andrews. Well, that is okay. That is okay.
    Dr. Benigni, is that how--
    Mr. Benigni. Yes.
    Mr. Andrews. Is the ``G'' hard or silent there?
    Mr. Benigni. Benigni.
    Mr. Andrews. I admire your public service as mayor, as well 
as school superintendent. You are a glutton for punishment.
    [Laughter.]
    I looked up some statistics about Meriden, Connecticut. And 
the local community health center there says that they estimate 
that 23 percent of the people of the city are uninsured. How do 
you think we should provide health insurance to those families?
    Mr. Benigni. I think that is really a discussion for you to 
have, but I think for me as a school system leader whose job 
and charge is to educate kids, you can't take money at a time 
when resources are so thin from students who need that upper-
hand, too. Otherwise, you will continue to cycle a problem.
    Mr. Andrews. So, I think you would agree that money 
shouldn't come from schools. Where do you think it should come 
from to help those citizens get health insurance?
    Mr. Benigni. That is really a decision for Congress to 
make.
    Mr. Andrews. You don't have an opinion on that?
    Mr. Benigni. I have a personal opinion, but I am here as 
superintendent--
    Chairman Kline. The gentleman's time has expired.
    Mr. Andrews. I would be delighted to hear it on the record. 
Thank you.
    Chairman Kline. I am always a little concerned when Mr. 
Andrews does mental math.
    [Laughter.]
    Dr. DesJarlais, you are recognized.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    I thank the witnesses for being here today.
    Even before the implementation of the President's health 
care law, schools across my state in Tennessee spoke to me 
about the weight of bureaucracy and regulatory reporting 
requirements from the federal government. Now, with this law, 
that burden, you know, has certainly increased and I am sure 
you are seeing the increase of those regulatory burdens.
    So, instead of focusing on improving student outcomes, 
schools are now worrying about how this health care law affects 
their teachers, their health care plans, how it affects their 
reporting requirements, and even affects their substitute 
teachers' hours in the classroom.
    So, instead of focusing on providing college students with 
the skills and knowledge they need to excel in colleges and 
universities, they must instead contemplate caps, teaching 
loads for adjunct professors, and complying with more onerous 
paperwork and, you know, in some cases even possibly having to 
raise tuition, which we talked a little bit about today.
    So, I guess, do you feel that this health care law has 
helped in any way or hurt your process for educating students?
    We will start with Mr. Needles.
    Mr. Needles. Well, I am going to have to defer to Dr. 
Jandris and Dr. Benigni, because they are on the frontline for 
that.
    Mr. DesJarlais. Okay. Mr. Jandris, go ahead.
    Mr. Jandris. Yes, as I have said earlier, it will have a 
significantly deleterious impact on our ability to serve the 
kind of students, the number of students, and with the quality 
that we are committed to. A million-dollar swing in my small 
university is onerous to us in the extreme, quite frankly. It 
would result in the elimination of jobs for adults and for 
student workers. It would also reduce the locations at which we 
could teach our courses, and may have an impact on our ability 
to access instructional materials. It would be a very 
significant cost for us.
    Mr. DesJarlais. Okay. And so you said that you think all 
Americans should have access to affordable health care, but the 
big question is how do we pay for it. And ``affordable'' is the 
key word there. You know, what we are not seeing with this 
health care law is anything affordable. You know, we are 
talking about, where does this pot of money come from? We are 
17 trillion in debt. You were struggling before this law. You 
are struggling more now. And, you know, I don't know where we 
are magically going to create this money to provide this 
access, but we see a health care law that is failing. It is 
failing in businesses, not just in universities, but we are 
here to talk today about universities.
    Mr. Benigni?
    Mr. Benigni. Yes, sure. From a school system perspective, I 
think, obviously, we are going to redirect resources to pay for 
health care for our employees. That can't be good for students. 
Because that means something else has to get cut to do that. 
That is why I am here today. That is my concern. I also think, 
when you look at the actual employees, some employees are 
getting better care than they are going to get when we make 
these changes. Some folks have made a decision to take a job at 
a low-paying wage because they get a quality health care plan. 
But the way this is going to force us to act is actually going 
to make us raise their deductibles through the roof and hold 
them more accountable for their expenses. And at the same time, 
I am cutting services and programs for students at a time when 
our school systems cannot weather the storm. I mean, I am here 
to tell you that we can't do without. And now, you are adding 
an additional expense onto the school systems.
    Mr. DesJarlais. Are you in favor of socialized medicine?
    Mr. Benigni. I don't--on a personal level, I am in favor of 
making sure that everyone gets health care, but I am also in 
favor of preventative medicine and some of the programs that we 
have put in place that now I am going to have to pay an excise 
tax on. That is not positive, either.
    Mr. DesJarlais. Of the provisions, which, if changed or 
repealed, would provide you the greatest benefit?
    Mr. Benigni. That is a great question. Well, I mean, the 
30-hour threshold going up to 40 hours would obviously help for 
a public school system. Even though we operate two of our 
schools at 100 minutes more per day, most of our schools are on 
a 6 \1/2\ hour school day. That would help.
    And I also think you have to raise the excise tax 
threshold. We are already meeting some of them, and the law is 
just getting underway. By 2018, that is where I mention, it 
would cost my district $2.5 million. Those thresholds need to 
go up, because every part of the country operates at different 
insurance rates.
    Mr. DesJarlais. Okay, so the Affordable Health Care Act is 
not working for you. It is not working. Is that correct? I 
mean, what you are seeing right now, it is not working? It is 
creating great headaches?
    Mr. Benigni. It is not benefiting the students of my school 
system.
    Mr. DesJarlais. All right.
    And, Mr. Needles, do you agree?
    Mr. Needles. I think that it is having a detrimental effect 
on the adjunct professors and students and in the colleges and 
universities.
    Mr. DesJarlais. So, maybe all this talk about scrapping and 
starting over, finding a better way would be something we 
should entertain.
    I yield back.
    Chairman Kline. I thank the gentleman. Mr. Pocan, you are 
recognized for more than 30 seconds.
    Mr. Pocan. Thank you, Mr. Chair.
    Well, thank you to the witnesses.
    You know, I do think one of the things that has come out 
for me--and I am glad we are having this conversation in a 
district that has about 75,000 students in a lot of different 
educational institutions at the higher ed level, plus all the 
folks in the K to 12--is the conversation specifically about 
some of the employment practices on the higher ed level.
    You know, I have been an employer for 25 years. I know 
sometimes my rates can go up 30 percent. So, you know, I know 
there has been a lot of bad practices. One of the things I am 
really excited about the Affordable Care Act is the fact that 
we have strong evidence that cost increases are down. In fact, 
it is about half of the last 40-year increase just since 2010. 
So, I think that is something that I haven't really heard being 
factored in some of the conversation today, but I think 
certainly should be. Because I had to factor those costs into 
my business, just like any of your businesses. The fact that we 
are going to have those costs going down looking very solid, 
like that is a possibility. It is also going to affect things.
    But really, on that employment side--Ms. Maisto, I forgot 
what you said again. The percent of people who currently get 
benefits, of those adjunct professors? What is that like?
    Ms. Maisto. The percentage of adjuncts who currently get--
only about 22 percent currently get health insurance through 
their college employers.
    Mr. Pocan. Yes, and I think that is one of the big stories 
that is out there, is, you know, in Wisconsin, when I looked at 
our state government, somewhat through the university system, 
there was a growing use of LTE's instead of FTE's. And it was 
strictly to get around providing benefits. So, this is a 
practice that has been going on for a very long time. It may 
have different words, it may have different terminology. The 
current attempt to do that is to say somehow, the Affordable 
Care Act is causing this. But it has been caused and happened--
is this your experience, Ms. Maisto, in other states, like we 
have had with Wisconsin, and east of--things like LTE's and the 
other ways to try to get around this in the past?
    Ms. Maisto. Yes, absolutely. I mean, colleges and 
universities have figured out many different ways of reducing 
the benefits and the supports that adjunct faculty receive, all 
in the name of cutting costs, in the name of being efficient. 
And adjunct faculty have responded primarily by not allowing 
their students to suffer. But as a result, they end up 
sacrificing their own health, the own families' well-being. And 
that is the situation that needs to change, because we are 
churning through adjunct faculty, and not supporting them. And 
when you don't support the adjunct faculty, you are not 
supporting the students.
    Mr. Pocan. Yes, especially when you look at what students 
are paying now with the rising costs--
    Ms. Maisto. Right.
    Mr. Pocan.--and seeing that their salary--
    Ms. Maisto. And many adjunct faculty have significant 
student loan debt themselves that they cannot repay, in part, 
because the threshold is 30 hours, and the Public Student Loan 
Forgiveness program is also 30 hours. So, when these 
calculations are made to avoid providing health insurance, they 
also don't--they are able to pay their student loans.
    So, that is a problem. And so, the solution really is for 
colleges and universities to fairly calculate the work hours of 
adjunct faculty, to do it accurately, according to standards 
that ensure quality education, not according to standards that 
are designed to avoid mandates that are going to be good for 
adjuncts and for students.
    Mr. Pocan. Sure. And then you add the complexity of--just 
as we have asked the panel, everyone should get health care. I 
agree with you.
    Ms. Maisto. Yes.
    Mr. Pocan. But the answer, I think--at least Congress has 
tried--has been the Affordable Care Act. And the lack of other 
ideas as we have asked that question is part of, I think, the 
problem that we are trying to face soon as we look at the cost 
savings other things that can happen.
    Let me switch gears just a little bit, Dr. Benigni. I think 
we are going all going to learn that word by the end of the 
day--your name and how to say it.
    A question on the sequester. Because, obviously, I look at 
my school district. I have got about half the kids in my 
biggest school district in my district on free and reduced 
lunch. You have got 70 percent. You are obviously getting some 
big hits from the sequester.
    What have you done in order to address those hits that you 
are getting right now? Are you letting staff go? What are you 
doing to absorb that?
    Mr. Benigni. Sure. And, obviously, to talk about the 
sequester, it would be take much more time, and I would be cut 
off, for sure. But in general--
    Mr. Pocan. How about just the simple part? Have you had to 
let people go? And, specifically, what have you done--
    Mr. Benigni. What we have done is, we have redesigned our 
special education operation, and we have many more in-district 
programs operating. But the way I did that is by hiring 
behavior techs and non-bargaining employees to support the 
effort. Now, those employees now are going to be the same 
employees that I hired to deal with the cuts that came with 
sequestration. Those are now going to be extra benefits. So, I 
am going to weigh the benefit of bringing students back in 
district--
    Mr. Pocan. Sure.
    Mr. Benigni.--and doing what is best for students with--
    Mr. Pocan. Yes, if I can just reclaim my time--so what it 
sounds like is, you found ways to shift the thin. So, not 
necessarily cutting off employees. So, like, if you did have 
different costs in health care, there are other things you can 
do within to try to address it.
    The sequester, as I look at it, is, you know--and your 
state is one of the higher states that is getting those cuts--
your district is 70 percent. They are certainly more of this.
    Mr. Benigni. It is a fraction of what this would cost me 
what the sequester was. You are talking about--
    Chairman Kline. The gentleman's time has expired. So, you 
get more than 30 seconds, but not more than 5 extra.
    Mr. Rokita?
    Mr. Rokita. Thank you, Mr. Chair. Thank the witnesses.
    Dr. Benigni, continue on with your answer. Sequester--how 
much of the problem--
    Mr. Benigni. Sure. And I didn't come prepared to talk a lot 
about sequester, but sequester cost our district about 300,000. 
The concerns with this is far greater than that, but some of 
the ways we marginalized that impact--we did look to redesign. 
But, you know, as I expressed in my opening remarks, we have 
had no increase from our local municipality. We have had 
decreased funding. It is pre-2004 levels from the federal 
government. There is only so much creative juice in any 
district. And I have a great team that I work with.
    Mr. Rokita. All right.
    Mr. Benigni. But this would be substantially more 
concerning to me than even what the $300,000 cost our district.
    Mr. Rokita. Great. Thank you.
    And continuing on with you, Dr. Benigni, what are your 
teachers saying about what is commonly known as Obamacare? 
Given all the testimony that has come out today, surely, there 
has been talk in the faculty lounge.
    The President's experience before he came to office--you 
would think that Obamacare came from a faculty lounge.
    Mr. Benigni. Yes.
    Mr. Rokita. What are they saying about Obamacare?
    Mr. Benigni. Well, you know, I have a terrific relationship 
with our union. We are switching everyone to health savings 
accounts. It is--save 25 percent on every plan. We helped feed 
those accounts initially with some funding to get them started. 
We--
    Mr. Rokita. Do they know that health savings accounts are--
do they know that health savings accounts are de-incentivized 
under Obamacare?
    Mr. Benigni. I think the public school sector is just 
waking up to some of this data right now. I don't think--
    Mr. Rokita. Dr. Jandris, same question.
    Mr. Benigni. I won't be the last person to talk to you 
about this.
    Mr. Rokita. Great, thank you.
    Dr. Jandris, same question to you. What are your teachers 
saying about Obamacare?
    Mr. Jandris. Yes. Well, obviously, our full-time faculty 
are not as deeply affected by it, but they are worried about 
the impact on our overall enrollment. Our adjunct faculty--
because we tend to be a university that treats our adjunct 
faculty several steps better than many universities do--are 
very concerned about it. They--almost all of our adjuncts--the 
vast majority of our adjuncts have insurance through other 
sources--through spouses, through retirement plans and other 
sorts of things.
    Mr. Rokita. Yes.
    Mr. Jandris. And so--
    Mr. Rokita. I wanted to go on--if you don't mind me 
interrupting you on that line of questioning--there has been, 
by another congressman, some mention made about how your 
adjunct folks make $24,000 a year. How can we expect them to 
survive in society? Talk to me about the average profile of one 
of your adjunct professors? Talk to me about how they came to 
be an adjunct professor? If they have supplemental income? If 
they did in the past? What their average age is? How many are 
married? How many might be on other people's insurance?
    Mr. Jandris. I don't have all the detail around that. I can 
tell you that 15 percent of our adjuncts only are what you 
would call ``career adjunct workers.''
    Mr. Rokita. How much?
    Mr. Jandris. 15 percent.
    Mr. Rokita. Right.
    Mr. Jandris. The others of them are second-career adjuncts, 
or people who are spouses of others who are covered under 
family packages of their spouses.
    Mr. Rokita. Do they--are they adjunct professors primarily 
for the money, in your opinion?
    Mr. Jandris. Among that 15 percent?
    Mr. Rokita. No, no, no, among the 85 percent.
    Mr. Jandris. Yes. No, no, they are not in it for the money, 
they are in it because they love education.
    Mr. Rokita. And they love teaching what they have learned 
through a lifelong experience, I imagine.
    Mr. Jandris. Absolutely.
    Mr. Rokita. Right, and/or teaching.
    Dr. Benigni, why do your teachers teach?
    Mr. Benigni. Our teachers teach because they love kids, and 
they believe that having a positive impact on kids is the 
greatest reward you can have in any career.
    Mr. Rokita. Dr. Benigni, why do you think schools exist? 
For teachers or for students?
    Mr. Benigni. Schools exist for students. They are at the 
heart and center of our work. Schools exist to make sure that 
we have a citizenry that can continue to support and make this 
the greatest nation in the world.
    Mr. Rokita. Dr. Jandris, why do schools exist?
    Mr. Jandris. Same answer.
    Mr. Rokita. Mr. Needles, witness Maisto made mention about 
the, quote--``dark secret,'' unquote, which I took to mean the 
balancing of these budgets on the backs of the adjunct 
professors. Do you have any comment in reaction to that?
    Mr. Needles. I am not sure whether it is a dark secret or 
not. It has been a form of doing business in the higher ed 
world--
    Mr. Rokita. The idea of balancing a budget, you mean?
    Mr. Needles. Just using adjuncts to supplement full-time 
professors and to supplement the staff. That has been a model 
that has been in place for years.
    Mr. Rokita. Okay.
    I yield back.
    Chairman Kline. The gentleman yields back.
    Mr. Holt, you are recognized.
    Mr. Holt. Thank you, Mr. Chairman.
    I hear from constituents back in New Jersey, some letters 
here in front of me, of teachers who are talking about this 
problem. But they are not talking about what the multiplier 
should be. They are talking about how can we have health care 
coverage for our family. And I would hope that this hearing and 
other discussions would be not so much about how things might 
not work, but in fact how we can get adequate, excellent health 
care for all Americans.
    I hear some talk about an idealized world here where gladly 
would they learn, gladly would they teach for free. Well, I 
don't think that is the world. I would like to explore for a 
moment the real world we are living in. Mr. Miller said or 
implied that it would be good to have some hearings on how 
teaching actually is done now.
    So, Ms. Maisto, we just heard that part-time--there is a 
long pattern of using adjunct professors to supplement the 
full-time faculty. Tell us again what is the fraction of 
teaching that is done by adjunct faculty now.
    Ms. Maisto. Right. Faculty who are contingent now number 75 
percent of the faculties. Fully 50 percent are part-time and 
the additional 25 percent are full-time--
    Mr. Holt. And why do you think colleges and universities 
are increasingly relying on part-time, adjunct faculty?
    Ms. Maisto. Well, it has been very clear. It is the 
business model that has been adopted in order to cut costs at 
the expense of the well-being of these faculty and at the 
expense of student outcomes.
    Mr. Holt. It is dominant or almost dominant, not just 
supplemental.
    Ms. Maisto. Absolutely--the majority.
    Mr. Holt. Can you describe the major differences in wages 
and benefits, particularly in health care, between full-time 
faculty and adjunct or part-time faculty?
    Ms. Maisto. Sure. Adjunct faculty make anywhere from about 
a third of what full-time faculty make; rarely have access to 
benefits. Although I have to say that there are many colleges 
and universities that have taken it upon themselves to provide 
health insurance to their adjunct faculty, recognizing that is 
an important component of the working conditions they need.
    Mr. Holt. It is about a quarter of them, I understand, or 
something like that.
    Ms. Maisto. Right. So, yes, and generally in unionized 
environments, there is health care.
    Mr. Holt. Now, I think you gave a figure about how over a 
15-or 18-year period at least one community college that you 
are familiar with, how that percentage between full-time and 
part-time has changed. Would you give us that again, please?
    Ms. Maisto. Sure. At my community college in Ohio, we went 
from 10 percent part-time in 1995 to 76.6 percent part-time in 
2009.
    Mr. Holt. So, 18 years ago, those 90 percent that were 
full-time, did they have health care coverage?
    Ms. Maisto. Yes, they did.
    Mr. Holt. And what fraction now of the teaching force has 
health care coverage?
    Ms. Maisto. At my college, only about 25 percent.
    Mr. Holt. Okay. So that, I would offer to this committee, 
is the issue, not what the multiplier is, but how it seems that 
in these employers, like other employers around the country, 
are finding it difficult to offer the health care coverage. But 
more important, the families of these workers, these teachers, 
need it.
    So, rather than talking about how the system might not work 
in some future case when a certain multiplier is approved, I 
would prefer to talk about how it is not working right now and 
how something like the Affordable Care Act, an honorable 
attempt to see that we have got affordable, excellent health 
care for all Americans, should be the focus of a discussion 
about how it is going to work, how we can make it work, rather 
than how it isn't working.
    We have a perfectly good model. One of my colleagues across 
the aisle says, ``Well, it is not affordable now.'' We have 
shown in my colleague's state here of Massachusetts, where we 
can get 99, 98 percent coverage, something like that, of all 
people and they are doing it. We should be looking for ways to 
make that work. And we have a reasonable way that we have been 
working on for several years now.
    And so, the issue is not what is the multiplier in this 
sector of employment in colleges. It is, rather, the issue is 
how are we going to get affordable, excellent health care for 
all Americans.
    Chairman Kline. The gentleman's time has expired.
    Dr. Roe?
    Mr. Roe. I thank the chairman for yielding.
    Let me just start off by saying that the problem with 
health care in this country is it costs too much. If it was 
affordable, everybody would have it. So that is the problem. It 
costs too much. And we do need to increase access to care in 
this country and we can talk about what is happening right now.
    Let me share with you a passion that I have, medical 
education. Vanderbilt University, one of the great 
universities, I hope they play a lousy football game Saturday 
against U.T., but one of the great universities in this country 
this year has had to reduce their jobs by 1,300 in Nashville, 
Tennessee. They have also reduced their medical school class by 
10 percent and their M.D. Ph.D program, which are our future 
researchers that are going to find the cures for cancer, by 10 
percent. That is devastating when you see that, for me, as an 
educator.
    And I did serve as an adjunct faculty. And I did believe my 
Hippocratic oath. I taught medical students and residents for 
25 years with no pay because I thought I ought to give that 
back, that knowledge that I had back. And I know that is what a 
lot of teachers do, a lot of teachers who are adjunct.
    Ms. Maisto, I agree with a lot of the things you have said 
today, by the way. I think colleges need to take a re-look. And 
I always worried about not having health benefits and 
retirement benefits and teaching for years. And I think that 
needs to be looked at. I agree with a lot of the things you 
have said.
    I want to shift to Dr. Benigni. I think with you being a 
mayor, I am a former mayor myself. And you have had to look at 
people and decide whether to raise their taxes; how to provide 
certain things at your school system. We have a school system 
almost exactly the size--the community I am from, 60,000 
people, almost 8,000 students, same as you have. And we 
provided health insurance for our bus drivers so we could get 
better bus drivers that just drove part-time.
    We have having to re-look those things. And things that are 
not--it is a matter of numbers about what can I afford to 
provide. And what you have done is you have had to make some 
decisions in your executive position as a school superintendent 
about how do I provide a quality product, which is the 
education of my students, and yet how do I pay for it all?
    And as you pointed out, the local community hasn't been 
able to provide you any more resources in 5 years, and yet you 
have now got a new mandate from the federal government to 
provide certain things you can't pay for.
    So, and I think one of the things that you haven't 
mentioned that your city is going to have to do if it is self-
insured, and I am sure it is, most are, is that you are going 
to have a 63 per person, not per family, but per person fee, a 
reinsurance fee that is going to cost my city of Johnson City, 
Tennessee 177,000 for which they get absolutely nothing for. 
Nothing. They are already providing it.
    And we talk about affordable coverage, I looked at one of 
my employees who works for me in the Congress right now, works 
for me in Tennessee. She has a $55,000 or $56,000 a year 
employee, making $50-something thousand dollars a year, which 
were we live is above the per capita income, and her cost is 
going to be almost 20 percent of her yearly income to buy 
insurance that is supposed to be affordable.
    And I think that is the real problem is the cost; is how do 
we get the cost down. And right now, this plan, I can see maybe 
some people will benefit from lower costs, but many people are 
going to be paying a lot more. And it is going to be paying a 
lot more because of the mandates that came along that you are 
having to deal with.
    And I would like to have your comments about it. I think 
that is what you were talking about. And as a former mayor, I 
got tired of any kind of mandate that came down from the 
federal government, whether it was health care or water runoff 
or whatever it may be.
    Mr. Benigni. Yes, I mean, as a superintendent, of course we 
want to provide for our employees. But at the same time, my 
charge is to provide for my students. And at a time when the 
local resources aren't there, there are reduced federal 
resources, something has to give. The last thing I need right 
now is another mandate and another expense because it will 
impact the enrichment programs. It will impact class size, 
which I already run elementary class sizes at 25-plus. I have 
some at the 29 and 30 level.
    I have a poverty rate that only increases every year. We 
are to a breaking point. It is not a question of whether we 
want to. It is a question of affordability. And I can't tell 
you how to do it. I can tell you that is not going to be good 
for our students in Meriden if we continue on the road we have. 
I think we need to look at the thresholds right away and we 
should look at the hours and raise that up to 40 hours. And I 
think those are two quick things that would help us right away.
    Mr. Roe. I thank you, Mr. Chairman. I yield back.
    Chairman Kline. The gentleman yields back.
    Mr. Polis, you are recognized.
    Mr. Polis. Thank you, Mr. Chair.
    I have a first question is for Ms. Maisto or Mr. Jandris, 
maybe give you both the opportunity to talk about. I have heard 
from two major universities, public universities in my 
district, Colorado State University and the University of 
Colorado at Boulder, and many adjunct faculty are part-time 
employees who are paid per course they teach. How would you 
recommend the universities determine whether their adjunct or 
part-time faculty are achieving the equivalent of 30 hours per 
week? And what strategies are your institutions undertaking? Or 
can I pass along this recommendation to them?
    We will go to Ms. Maisto first.
    Ms. Maisto. I am sorry, I didn't hear the first part of the 
question.
    Mr. Polis. How would you recommend universities determine 
whether their adjunct or part-time faculty are achieving 30 
hours a week? And what strategies are they undertaking?
    Ms. Maisto. Sure. We believe that certainly adjunct faculty 
need to be a part of the conversation.
    Mr. Polis. Meaning that they are paid per course?
    Ms. Maisto. Right.
    Mr. Polis. They are not paid per hour. So what is the best 
way internal to university operations to, if they are paid by 
course, not per hour, how are you determining are they meeting 
the 30 hours?
    Ms. Maisto. To figure out the conversion formula, you mean?
    Mr. Polis. That is right.
    Ms. Maisto. Yes. We believe that it is important that 
adjunct faculty be able to report honestly and truthfully the 
amount of time that it takes to do the work of educating 
students.
    We believe that disciplinary organizations ought to be 
involved. The Modern Language Association, which is the 
disciplinary association for English teachers, has recommended 
a minimum of $7,000 per course for people teaching in that 
field, based on the amount of work that is required to do the 
job properly.
    Mr. Polis. How do you decide what is work? I mean, so, 
obviously, lecturing, that is work. I am sure grading papers is 
work. But keeping up with current developments in the field and 
reading journals--
    Ms. Maisto. Absolutely. Keeping up with current--
    Mr. Polis.--is that work?
    Ms. Maisto.--developments in the field--
    Mr. Polis. I mean--you know.
    Ms. Maisto. But a huge amount of the time that adjunct 
faculty, that all faculty need to spend is time mentoring 
students. That is what students always crave, it is what they 
always ask for.
    And so, those of us who are especially teaching 
disadvantage students, students who are under-prepared, that 
one-on-one time is critically important for helping those 
students succeed.
    But I have had to tell my students this semester, for 
example, that I cannot meet with them because my college has 
told me that I only work 1 hour outside of class for every hour 
I am in class.
    So my students are suffering as a result of that 
calculation, which is simply not accurate.
    Mr. Polis. And, Dr. Jandris, what would you, again, 
recommend how universities are determining adjunct or part-time 
faculty that are paid by the course are achieving the 
equivalent of 30 hours a week?
    Mr. Jandris. Well, as a former adjunct faculty member 
myself, I actually agree in principle with most of which--with 
which Maisto has said, quite frankly.
    We certainly would never consider a 1:1 ratio from credit 
hours to numbers of hours worked. I mentioned before we use a 
3:1 ratio at Concordia. And, in fact, that is light. If we 
could afford to provide more, we would.
    I am not sure 7:1 is the right ratio. But somewhere 
between--
    Mr. Polis. Is that 3:1 just based on their, like, classroom 
lecturing time--
    Mr. Jandris. No.
    Mr. Polis.--or would it include office hours?
    Mr. Jandris. No, it is assuming student contact hours 
outside of classes--
    Mr. Polis. Okay.
    Mr. Jandris.--preparation time--
    Mr. Polis. And then multiplying that times three.
    Mr. Jandris. We have the additional complexity at Concordia 
of actually asking our adjuncts to drive considerable distance 
to these 61 locations I was talking about. And there is a 
question about whether or not that time should be considered in 
there, too.
    The raising, as one of my colleagues here said, the raising 
of the threshold to 40 hours would actually solve a lot of this 
for us, because we would be in a position then to be able to be 
more generous in the counting of these hours in a way that 
could accommodate for those faculty who reach those thresholds.
    Mr. Polis. Great. Let me move over to the student side, 
again, question is to both of you.
    I want to ask whether your institutions self-fund student 
health insurance plans. As you know, self-funded student health 
plans are not subject to the same types of consumer protections 
and requirements in the Affordable Care Act.
    But if self-funded plans do meet the requirements, they can 
then be considered minimal essential coverage for students.
    So how have your institutions approached self-funded plans 
to ensure the students have insurance that meets their needs, 
for what--we just have about 20 seconds, so I guess we will go 
to Dr. Jandris first.
    Mr. Jandris. Yes. We at this point have not been forced 
into a position in our planning to consider modifying our 
student health plan, at this point.
    Mr. Polis. Ms. Maisto?
    Ms. Maisto. Sure. For my institution, I would have to get 
back to you on that.
    Mr. Polis. Okay. Thank you.
    And I yield back.
    Chairman Kline. Thank the gentleman.
    Mr. Barletta, you are recognized.
    Mr. Barletta. Thank you, Mr. Chairman.
    Back in Pennsylvania last week, I hosted a higher education 
roundtable in the northern end of my district with higher 
education leaders from all sectors.
    And a common theme that I heard was that Washington 
continues to pile on burdensome regulations and reporting 
requirements at the same time we come back and we tell our 
institutions of higher education that they need to address the 
rising cost of college. Yet, we continue to burden them with 
these requirements.
    And the administrative burden of the Affordable Care Act 
will be substantial, as we heard today.
    Dr. Jandris, you know, I am concerned about the non-
traditional student, which I believe is becoming the 
traditional student.
    Mr. Jandris. Absolutely.
    Mr. Barletta. You know, the student that has to work during 
the day because they are supporting a family and can only go to 
class at night.
    And I know our colleges around the country are trying to 
accommodate them so that they can get an education, so that 
they can take care of their families and support their 
families.
    My question is, what would be the impact on the non-
traditional student, since so many of those classes will be 
taught by adjunct faculty members?
    Mr. Jandris. And thank you for asking the question. You 
just described 85 percent of my student body.
    And the reality is that it could result--the full 
implementation of this under the current projected standards of 
30 hours could, actually, force us into a position of having to 
increase tuition by as much as 20 percent.
    That 20 percent burden, on many of the students who we 
serve, who are the adult, working, underserved students of 
color, in particular, especially in the urban centers, would 
simply break their backs.
    Our comments are not about whether or not our faculty 
should have insurance. Our comments are about whether or not 
that insurance should be provided by further limiting access to 
higher education to students who have been underserved for so 
many decades.
    Mr. Barletta. So many individuals may not be able to afford 
to go to college.
    Mr. Jandris. Absolutely.
    Mr. Barletta. Or you may have to cut back on some classes.
    Mr. Jandris. A very substantial number of our students 
could never absorb a 20 percent increase in our tuition.
    Mr. Barletta. And let me--
    Mr. Jandris. And we have no other pot from which to draw 
those resources.
    Mr. Barletta. I think the theme is pretty clear here today. 
And we are really getting back to the same theme here, is 
that--and, you know, yesterday, I learned at a Homeland 
Security Committee hearing how the cyber side effects of the 
Affordable Care Act--will--affect us, how Americans' personal 
information will be at risk through hackers of the Web site or 
how convicted felons could be hired as navigators.
    And today, we are hearing how our education system will be 
impacted.
    You know, this reminds me of an old saying that sometimes 
the medicine is more harmful than the disease.
    Thank you. I yield back the balance of my time.
    Chairman Kline. The gentleman yields back.
    Ms. Fudge, you are recognized.
    Ms. Fudge. Thank you so much, Mr. Chairman.
    I thank you all for being here.
    Ms. Maisto, thank you so much--from my hometown. Let me 
just for the record as well say that I am a former mayor as 
well, and no one had to mandate to me how to treat my 
employees. I treated them with respect and dignity and worth, 
and provided health care for every single one of them.
    Mr. Benigni, you have used the number 2 million more than 
once about the impact that the Affordable Care Act would have 
on your institution. Where do you get that number from?
    Mr. Benigni. It is on your exhibit, excise tax on high-cost 
health plans exhibit. It is the tax impact, total--
    Ms. Fudge. Well, I know that. Who provided that 
information, that date?
    Mr. Benigni. Our health consultant, who works with the city 
and the board of education.
    Ms. Fudge. Yes, because I don't think that information is 
quite accurate, because I think it is based upon the excise 
being on the total amount and not the $1 above. I think that is 
incorrect. And I am not gonna argue with you because I haven't 
had the time to go through it.
    But let me just ask you this one question, Dr. Jandris. You 
indicated to my colleague that most of the people who teach in 
your institution do so because they love teaching. They don't 
do it for the money. Why do they take a check?
    Mr. Jandris. As I said earlier, the vast majority of them 
are in higher education, teaching in an adjunct role, as a 
second career.
    Ms. Fudge. That is not my question. If they don't do it for 
the money, why do they take the money?
    Mr. Jandris. They take the money because they use it to 
supplement their already meager--
    Ms. Fudge. Oh, so they do need the money. That is the point 
I was trying to get to.
    Let me just ask you, as we talk about the fact that in some 
institutions 75 percent of the professors are adjunct, we talk 
about the fact that they make, some of them, less than 25,000 a 
year. Some of them use other government benefits, like SNAP 
and/or other things.
    Can you tell me what affect, if any, does the financial 
need of these adjunct professors have on the quality of the 
education they provide?
    Ms. Maisto. Sure. Absolutely. I can tell you from personal 
experience when my husband lost his job and I had to try to 
support my entire family as an adjunct professor, I did not 
have the time available for my students. I did not have the 
time available to meet with them, to prepare adequately.
    The stress of having almost no resources certainly had an 
impact on my state of mind and my ability to do my job well.
    The salaries of adjunct faculty ought to be determined not 
by whether they have outside employment or other sources of 
finances. What it really should be determined by is the nature 
of the work and how much we value the work.
    And right now, what we are telling our public, what we are 
telling students is that this work is supplemental. It is not 
important. It is not critical.
    And that in itself is a major--has a major deleterious 
impact on the quality of education.
    We have done studies on what these circumstances of adjunct 
faculty do to the quality of education. There is a center at 
the University of Southern California that has been studying 
this carefully and has concluded that there is a real need for 
major reform in adjunct faculty working conditions, beginning 
with compensation, including health insurance and other 
professional supports.
    Ms. Fudge. Thank you very much.
    And my last question, actually, and it is to the other 
three, not Ms. Maisto, you all indicated that you believe 
everyone should have health care, but we should not do it on 
the backs of students. And I agree, to some degree.
    So where do you think it should come from? How do we pay 
your health care? Doesn't that come out of money that should go 
to students as well? Please? All three of you gentlemen.
    Mr. Jandris. I didn't hear the last part of your question, 
ma'am.
    Ms. Fudge. Does not your health care come out of resources 
that should also maybe go to students, if that is your 
philosophy, that we should not use resources that could go to 
the classroom to pay for health care?
    Mr. Needles. Well--well, I pay my insurance fully. So.
    Ms. Fudge. Okay. Mr. Jandris?
    Mr. Jandris. Yes, and for years, I have paid my own 
insurance personally too, and foregone charging it to the 
university.
    Ms. Fudge. Good.
    Mr. Benigni. We have budgeted expenditures.
    Ms. Fudge. Oh.
    Mr. Benigni. You are now asking us to take on a burden and 
not giving the resources--
    Ms. Fudge. That is not the answer to my question, sir.
    Mr. Benigni. .., to take on the burden.
    Ms. Fudge. What is the answer to my question?
    Mr. Benigni. That is the answer to the question.
    Ms. Fudge. No, it is not an answer.
    Mr. Chairman, I yield back.
    Chairman Kline. I thank the gentlelady.
    Mr. Messer, you are recognized for 5 minutes.
    Mr. Messer. Thank you, Mr. Chairman. I want to thank you 
and the entire team here on the committee for this important 
hearing today. I think it highlights a very important issue 
with what I would say is the unintended consequences of the 
Affordable Care Act.
    I would associate myself with some of the comments earlier 
by others that recognizes health care costs too much in 
America. The status quo is not acceptable. It is why I have 
supported the Empowering Patients First Act, which is another, 
a different philosophy in trying to address these very same 
problems.
    We are here today to talk about the impact, the real live 
consequences of the Affordable Care Act. And we have heard a 
lot of talk on the other side of the aisle about the best of 
intentions of the Affordable Care Act. And frankly, I don't 
quarrel with their intentions but you are accountable for both 
the intended and unintended consequences of your actions. That 
is the issue we are here to highlight today.
    I appreciate the testimony of all of you--would like to 
highlight a little bit some of the impact. In Indiana, where I 
am from, we have had in recent days reported that 701 Hoosiers 
have signed up on the Affordable Health Care Act exchanges, and 
108,000 are going to lose their health care plan.
    The schools in my district have cited similar experiences 
to Mr. Benigni. Dave Adams at the Shelbyville school system in 
my district estimates a $794,000 impact on his school because 
of the law.
    The Southern Hancock County schools estimate $340,000, both 
schools that were smaller than Mr. Benigni's school system.
    The Fort Wayne community school system is going to change 
its policies with 840 part-time employees, keeping them below 
30-hour work weeks, that would save the school, 10--the school 
system which is a county-wide school system $10 million.
    Vigo County schools have a similar experience. And I would 
just--several of you highlighted this. Most directly, Mr. 
Benigni and Mr. Jandris, if you could highlight again, very 
specifically, the financial impact of this law on your school? 
And what that is going to do to directly impact student 
learning?
    You cited, for example, the number of teachers.
    Mr. Benigni. In general, the same concerns that you are 
hearing in Indiana is what is starting to develop in 
Connecticut. You know it all depends on the layers of the law. 
So when you ask me to give one figure, I don't know that I can 
give you one figure. I can give you a worse case, best case 
scenario.
    Mr. Messer. But you cited $2.5 million as one impact.
    Mr. Benigni. As one of--in 2018. Looking at these numbers 
in their entirely, the cost of the Affordable Care Act 
requirements to the Meriden Board of Education approaches $4.6 
million.
    Mr. Messer. Which is how many teachers in your school 
system?
    Mr. Benigni. Fifty-eight teaching positions. Now obviously 
that wouldn't be 58 teachers, to be fair, it could be 20 paras, 
it could be 10 behavior techs, five administrators. But people 
will lose their positions.
    Mr. Messer. Fifty-eight out of how many total staff?
    Mr. Benigni. Out of 1,100 total staff.
    Mr. Messer. A big number.
    Mr. Jandris. In Toss, it is a similar situation, although I 
represent a private faith-based institution. We have no other 
resources except tuition dollars from which to reallocate this 
kind of expenses. As I mentioned earlier, in the worst case 
scenario it would be a million dollar hit to my budget, which 
would be substantial.
    That could equate to 44 adjunct employees for us, and 
limited access to the kinds of students we serve as a result of 
that kind a reduction. A 10 percent reduction in our adjunct 
ranks.
    Mr. Messer. So it limits your curriculum, and it also 
raises costs for your students? But I think, in addition to the 
impact--the real world impact on student learning, I think 
there is a real world impact to the rest of your faculty, right 
and the current opportunities that you are providing from a 
health care perspective and the decisions you may have to face, 
so if--either--again, I know, Mr. Benigni from your prior 
testimony, you provide health care to your current employees.
    Or are you happen to look at other decisions with your 
health care plan?
    Mr. Benigni. Ninety-four of our employees receive health 
care coverage, it is the cost that insure those other six at a 
time when there are no resources to do it. So already, we have 
reduced hours from 30 hours a week to 27 \1/2\.
    And I am like a private business, I can't separate into 
different LLCs and make sure they are all under 50 employees, 
we are a school system who depends on the support to run, and 
this is coming at a bad time, because the funding is not there 
to educate--
    Mr. Messer. And if those faculty leave, where does that 
burden fall?
    Mr. Benigni. That burden falls back on Congress to discuss 
unemployment benefits.
    Mr. Messer. Well, I mean, but doesn't it fall to the 
people--well that, but it also falls on the rest of your staff.
    Mr. Benigni. Right.
    Mr. Messer. The rest of your staff.
    Mr. Benigni. Without question. And just to say, I have a 
tremendous amount of respect for my unions, we have a great 
working relations. We negotiated very good health plans for our 
employees, we have shifted them to HSA, they are happy with 
their health care plans right now. It is not like we are taking 
advantage of our employees, we are trying to serve our kids.
    Chairman Kline. The gentleman's time has expired.
    Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman and thank 
you Mr. Ranking Member. And thank you to all the witnesses for 
being here today.
    And I am glad that you all recognize the importance of 
access to health care. And I don't think that any of you would 
disagree that this was an issue that needed to be addressed. 
The health care costs were increasing, something needed to be 
done.
    So I wasn't in Congress when the Affordable Care Act 
passed, but I do know and appreciate the goal of increasing the 
number of people who have insurance and therefore have better 
access to health care.
    It is--that increase access to care can improve, you know, 
prevention, and that access to preventive care is important. In 
the long term reduce chronic disease, eliminate the cost shift 
of people getting high-priced health care in emergency rooms. 
And generally resolve in a healthier society. And I therefore 
applaud the goals of the law. And I really urge us to think 
long term about this, you know there are talks about how many 
people signed up on the first day or even the first week, or 
month.
    We really need to look long term. As we are looking at the 
long term effect on our society of a healthier population.
    And I certainly agree with my colleagues on both sides of 
the aisle that the Affordable Care Act, like many comprehensive 
laws when they first go into effect has room for improvement. 
And I think we would all agree on that.
    And we should be working together constructively to 
identify issues that need to be addressed in order to improve 
this law.
    One thing I do want point out too is the importance of some 
of the market reforms. And I know Mr. Needles, in your 
testimony, you talked about one of the more popular ones which 
is students up to the age of 26 staying on their parents health 
care plan.
    And you know people who call for repeal, that wouldn't be 
very popular in my district. There are a lot of those students 
who are on their parents health care plans. I think there are 
more 6 \1/2\ million in this country.
    Now who are taking advantage of that to stay on that plan 
while they are either, you know, furthering education, looking 
for a job, so, there are very important parts of this law that 
are making a big difference.
    So again, I hope we can have a constructive discussion 
about how to improve implementation.
    Now, I know that there has been discussion about how the 
IRS has not published a final rule on the adjunct faculty 
issue. And some employers may be making what will turn out to 
be inaccurate assumptions about what the law requires.
    And I wanted to ask you, Ms. Maisto, I appreciated your 
focus on the challenges facing adjunct professors, particularly 
concerned about what you say about the increase in percentage 
of faculty that is adjunct. It concerns me greatly.
    But let's talk about this proposed rule and not knowing 
what eventually will be in the rule if employers are making 
decisions about hours and health care eligibility without 
complete and accurate information. How might that be affecting 
adjunct professors?
    Ms. Maisto. Well, it is certainly creating a huge amount of 
uncertainty for them. But what they are, I think, relying on is 
the idea that through the Affordable Care Act they will be able 
to get health insurance, if they need it.
    When colleges have reduced adjunct hours, they have not 
corresponded with an increase in pay. So they have not provided 
them with more income. But the Affordable Care Act is now 
serving as a safety net for most of those adjunct faculty 
members.
    And I know that there is a lot of relief out there that, 
even if their adjunct hours are cut that they probably will 
have access to health care.
    Ms. Bonamici. And you may have mentioned this already but 
what percentage of adjunct faculty have insurance already, 
either through a spouse or through another position that they 
may have, or through their own individual purchase through an 
exchange or an individual plan?
    Ms. Maisto. I would have to get you the exact figure. It is 
certainly true that many have access to insurance through other 
sources. So one of the things that we are hoping that will come 
out in the rule-making process is perhaps figuring out ways to 
exempt those who already have insurance from being counted for 
the purpose of the mandate.
    So we think there are lots of creative ways that we can 
address this without penalizing people and denying them health 
insurance. And we think that there are some--you know, there 
ought to be some ways to come up with some creative solutions, 
and we are happy that we are part of the conversation because 
that doesn't usually happen,
    Ms. Bonamici. Thank you very much.
    And I wanted just to reiterate some of the comments that my 
colleagues made about other issues, as well, that are affecting 
education and higher education, including the sequestration 
cuts. I had a lot of discussions out the last time I was in my 
district in Oregon about how sequestration cuts are affecting 
programs like Title I.
    How state disinvestment and higher education is affecting 
tuition rates. So let's not let the Affordable--yes, there are 
issues to be addressed, but let's not let the Affordable Care 
Act take our focus away from those other important issues that 
are affecting both K-12 education and higher education.
    And I see my time has expired, thank you, I yield back.
    Chairman Kline. I thank the gentlelady.
    Mrs. Brooks, you are recognized.
    Mrs. Brooks. Thank you, Mr. Chairman. I would like to pick 
up on a question a couple of questions ago that really talked 
about the student impact, and we have heard a bit about the 
student impact. But I met last week, when I was in my district, 
with a number of school superintendents from Hamilton County 
and Madison County, and talked with them about the impact of 
the increased health care cost to their school district. And I 
guess, Dr. Benigni, you mentioned, you know, all these teaching 
positions and you, Ms. Maisto, talked about your inability to 
spend more time with our students outside of the classroom. 
That you have like 1 hour.
    But could we actually talk about the real actual impacts? 
And one of the things that they brought up with me from the K-
12 system is that a lot of teachers' aids were being cut in 
the--because of the hours. And that they have--including those 
for special needs kids, and you have obligations, particularly 
when it comes to special needs kids, which really kind of opens 
the systems up to lawsuits, if you aren't complying with those.
    Can you actually--each of you, kind of share with us, 
briefly, some specific student impact that you are concerned 
about with respect to the additional cost to your systems.
    Dr. Benigni?
    Mr. Benigni. In regards to the special education, some of 
our students who deal with transitions not so well are now 
going to have to deal with the transition from one staff to 
another. Because we can't afford--the money is not there in the 
budget. So, you get no increase. Your health insurance 
increases are going up at 15 percent a year already, so there 
is $1.5 million in my budget that I need to make up for before 
I get out the gate.
    That is just in contractual increases and where the health 
market is today. So, what I will do to address the student 
issue is--what I will do is, I will transition a para or a 
support staff member. They will stay with the student for the 
morning, bring him to lunch. After lunch, I will hire someone 
else to transition that student to the second half of the 
school day.
    Mrs. Brooks. In your opinion, is that best for that 
student?
    Mr. Benigni. No, and that is the dilemma that we are facing 
now. But if I cut teachers and my class size--I mean, I have 
fourth and fifth grades with 28 to 30 students in them. I can't 
even fit the extra desks in the room to address it, so I have 
to cut somewhere. So, that was one option that we have on the 
table, is, let's split the shifts. Let's look at when there is 
a natural break in the day so it least impacts our students.
    Mrs. Brooks. And so, that would be with respect to 
teacher's aids?
    Mr. Benigni. Behavior techs, para-professionals, teacher's 
aids--we all call them different things. But some of our key 
support staff members. But it is also coming at a time when we 
have worked very hard to bring special education students back 
into district. That is part of what has helped us sustain 
during these difficult times. We have more students choosing 
the Meriden Public School System than outplaced facilities.
    I mean, we have a state-of-the-art autism center where 
students--so, I am concerned with those transitions. I am 
concerned with having those meetings with parents about, ``You 
know what? You are going to--now, your child is going to have 
to work with two different support staff people.'' But the way 
I am pitching it to my people--because they need to be positive 
about this--is, let's look when we can do the natural breaks. 
Lunchtime, when they are already going to art class.
    So, we are going to sort through it, but it is an 
uncomfortable position to be in.
    Mrs. Brooks. Thank you.
    Ms. Maisto--
    Ms. Maisto. Yes, if I could just say--
    Mrs. Brooks.--affecting your students?
    Ms. Maisto.--as the parent of a child on the autism 
spectrum, this is something that I am very concerned about. But 
I think that the answer is not to argue over the Affordable 
Care Act. The answer is better funding for schools and for 
special education across the board.
    There is a huge need across the board. And I think that we 
get distracted when we talk about what the impact is going to 
be of a specific law that was actually intended to help, and 
will help so many people, and not address the bigger question 
of providing the right amount of support to our students and 
their teachers.
    Mrs. Brooks. Thank you, but switching gears back to faculty 
members' inability with reduced hours, can you and Dr. Jandris 
please talk about how your students will be impacted besides 
rising costs? Any actual application?
    Mr. Jandris. Yes, in my instance, we would first and 
foremost have to reduce the numbers of adjuncts available. In 
reducing that number of adjuncts, then those students who are 
in some of our hardest-to-serve areas would not have readily 
convenient access to their education.
    We would also, since we are so diffuse in the way in which 
we teach, have to limit access to technology because technology 
is expensive when you do it remotely.
    And then, finally and thirdly, we would have to reduce 
other ancillary and supplemental instructional supplies and 
materials, now that we distribute literally worldwide for our 
students to be able to have access to.
    So, some very real consequences. We have no other pots of 
money form which to draw unless we reallocate from student from 
instruction to salaries and benefits.
    Mrs. Brooks. Which will affect our completion rate at the 
end of the day, or not.
    Mr. Jandris. Exactly.
    Mrs. Brooks. Thank you.
    Chairman Kline. Thank the gentlelady.
    Mr. Miller, you are recognized for any comments and closing 
remarks.
    Mr. Miller. Thank you, Mr. Chairman. And thank you again to 
the witnesses.
    Ms. Maisto, so, who is a full-time professor?
    Ms. Maisto. Who is a full-time professor?
    Mr. Miller. Yes. One who does what?
    Ms. Maisto. Full-time professors, if they are on the tenure 
track, have obligations not just to teach, but also to be 
involved in research and service. Those are actually 
obligations that all faculty members have. But those who are 
not on the tenure track don't get credited for research and 
service, even if they do it.
    Mr. Miller. So, there are no full-time professors other 
than people in tenured track?
    Ms. Maisto. There are full-time non-tenure track 
professors--
    Mr. Miller. How many--
    Ms. Maisto.--but there are now sort of--
    Mr. Miller. How many units do they teach a week?
    Ms. Maisto. I am sorry?
    Mr. Miller. How many units--how many hours do they teach a 
week?
    Ms. Maisto. It depends. But usually, they have slightly 
higher teaching loads than perhaps tenure track professors who 
may have research and service obligations. But--
    Mr. Miller. But does this three-to-one ratio apply to them?
    Ms. Maisto. Ostensibly, these ratios are to apply to all 
faculty. It would be problematic if these ratios were to apply 
only to part-time faculty, and not to the other faculty. In 
part, because students pay the same tuition for classes taught 
by any type of faculty member.
    Mr. Miller. Right. Let me make my point.
    We are deciding as an institution hiring--that adjunct 
professors are not inferior professors--
    Ms. Maisto. Right.
    Mr. Miller.--in terms of quality of course delivery. And I 
think we had a hearing here once on for-profits that have 
decided that since they are billing by unit--you know, $500 a 
unit, or whatever the price is--that these three-unit courses 
were really five-unit courses.
    So, what is going on there? I mean, so we don't--you know, 
and the seat time unit course thing is under challenge because 
of Mook's online course--you know--
    Ms. Maisto. Mm-hmm.
    Mr. Miller. You know, Stanford professors teach 150,000 
people.
    Ms. Maisto. Right.
    Mr. Miller. I don't--are you going to divide that? I mean, 
so we maybe have a clash here of accounting systems that don't 
make sense anymore, and are already under challenge for a whole 
host of reasons. It is a question of, you know, are you 
responsible for the outcomes of your students, however you put 
those together over that class period of 3 hours a week for 10 
weeks, or whatever it is, is that outcome your work product? 
And is that not--you are not available for that work product, 
but a full-time professor could say that is my work product, 
because he or she somehow is in a different accounting system.
    Ms. Maisto. Mm-hmm.
    Mr. Miller. And, yet, they would not accept the three-to-
one. So, if the three-to-one is--we are seeing, then, what? You 
are not preparing as much as the full-time professor?
    Ms. Maisto. Right, right.
    Mr. Miller. You are not doing the research to update your 
classes? I mean, I have looked through syllabuses when I visit 
the college classes. I like to see what has been put together 
here. There is a hell of a lot more than 3 hours a week with 
that class--
    Ms. Maisto. Mm-hmm.
    Mr. Miller.--just in contact time, even.
    Ms. Maisto. Right. Absolutely.
    Mr. Miller. And so, you may have a serious clash--this 
doesn't make it easy, but it is a serious clash of how we now 
measure this. And when we are moving to competencies and 
outcomes, and not course time and not units, and certificates 
and badges, all of which are unrelated to that whole thing that 
was in place--I guess still in place today--in place when I 
started college--of this is, what, three units three times--
this is a two-unit course, a five-unit course. That may be as 
obsolete as the health care bill is new.
    Ms. Maisto. Mm-hmm.
    Mr. Miller. I think it raises really serious issues--
    Ms. Maisto. Yes, well, we need a national conversation.
    Mr. Miller.--about how people are standing in this pecking 
order, and how arbitrary that pecking order is, and who gets 
inside the system and who gets outside the system.
    Ms. Maisto. That is absolutely true. We need a national 
conversation about faculty work and its impact on students.
    Mr. Miller. Well, I would like to work with you. I would 
like to open up some kind of online site so people can talk 
about this to members of Congress. Because we are sitting here 
going back and forth like we haven't done this, or we should 
have done this, or we might do this. And I would like to--
because I think there is a huge lack of understanding of what 
it means to be in the adjunct world. And I guess my 
perspective--I will raise the question--is there a level of 
subsidization that is going on here?
    Ms. Maisto. Well, absolutely.
    Mr. Miller. It is really unfair. I know that is your case.
    Ms. Maisto. Yes.
    Mr. Miller. I would just like to see if that could be 
quantified, or how we would put that in. And how does this fit 
into the evolution that is, you know, rapidly accelerating on 
how we award students for their time in--for their time in 
class, outside of class. Because we are now--you know, 
education is becoming more of a process than a place.
    Ms. Maisto. Mm-hmm.
    Mr. Miller. Rapidly so. And who monitors that? And how do 
you guide those students? And is that the same as if they were 
all in your class? But they are not in class this week because 
they are out getting competencies and experiences that are 
related to class.
    This is going to get more and more difficult--
    Ms. Maisto. Right.
    Mr. Miller.--and have a hell of a lot less to do with the 
Affordable Care Act than it is about institutions, about 
student loans, about debt funding--
    Ms. Maisto. Absolutely.
    Mr. Miller.--that are driving these changes. And how do we 
award competencies and outcome, as opposed to seat time?
    Ms. Maisto. Absolutely.
    Mr. Miller. So, you all think about this. We will have you 
back in a little while. Thank you so much for your attendance 
here.
    Ms. Maisto. Thank you.
    Chairman Kline. I thank the gentleman.
    And we have been having a little side conversation here as 
we have started to think about the adjunct faculty issue. And I 
am sure there will be further discussions. And we are already 
having hearings and starting to wrestle with the 
Reauthorization of the Higher Education Act. And those will 
continue.
    But the hearing today was not if we can fix the adjunct 
faculty, and it is not really whether or not the Affordable 
Care Act is working, or can be made to work, or something like 
that. It was to look at the unintended consequences of that 
law, which is unfolding in front of us.
    And so, I very much appreciate your testimony and the 
answers to the questions. And what I heard out of this is, 
besides the education that we got up here about adjunct 
faculty, and some disagreement about whether they are paid 
enough or have enough benefits. That is an interesting issue. 
But we are trying to get at here, you got people, institutions, 
we have got a university here. We have got public school. We 
have got somebody who is advising. We have got somebody who is 
working as an adjunct faculty member.
    What is the implementation of this law doing to you? And 
what I have heard is this. It is more expensive. And so, Dr. 
Jandris says, ``Well, this is maybe a million dollars. And, 
okay, but around here a million dollars is--I think Ms. DeLauro 
said that is budget dust, or something like that. But to you, 
it is really important. And so, you have to make decisions. And 
you very, very carefully explained to us that you don't have a 
large endowment. And you are not a public institution, so you 
are not going to get more money from the state or something. 
So, you have to raise tuition.
    And one of the other issues that we talk about here all the 
time is the ever-rising cost of higher education--tuitions and 
fees, going up. That certainly would be an unintended 
consequence if that is what you had to do, was raise the cost. 
And looking at your student body, 85 percent of whom are non-
traditional. I am kind of like Ms. Foxx--we ought to find 
another way of talking about that, since there are more non-
traditional students than traditional students in many places.
    Or you testified that, well, if you don't raise the 
tuition, you are going to have to reduce the number of sites. 
You may have to lay off some adjunct faculty, and so the 
quality of service is going to go down and that is something 
that we don't want to see happen--would certainly qualify as an 
unintended consequences of the implementation of this law.
    And, Dr. Benigni--and I apologize, we have butchered your 
name every day as well as Ms. Maisto and Meriden and I don't 
know, I can't ever remember a day where we had so many 
mispronunciations up here.
    But, your concern is not whether or not this law is a good 
law, whether it works or all of that kind of stuff, you are 
looking at dollars and cents, and you are having to make 
choices--are you gonna cut back on faculty, are you gonna have 
to go to split time--I thought that was a very excellent 
explanation of, are you gonna have somebody take the student to 
lunch and then somebody else pick them up after lunch?
    And these are tough questions and you have a negotiated 
benefit package with your teachers, and they like the health 
care coverage they have got right now and your testimony is, 
you may not be able to keep that. The health care they like may 
not be the health care they end up with at the end of this.
    And again, that is an unintended consequence. You have got 
a school district and it is working, and you are wrestling with 
the daily problems of staffing and discipline and students 
coming and going and now you have got potentially over 2 
million that is gonna impact you by 2018. And our friend and 
colleague, Ms. Fudge, said, well why--she didn't believe that 
number, but you have got professionals that are giving that 
number and you are wrestling to how you are going to deal with 
that.
    So again, that is what this hearing was for. And not 
surprising, because it is often at tale of two cities, we look 
at things a little bit different here. You know, I don't know 
if it is the best of times or worst of times. It really is 
both, but I want to thank the witnesses for coming, for your 
testimony and for your engaging in the discussions. I 
appreciate it very much.
    There being no further business, we are adjourned.
                                ------                                

    [Whereupon, at 12:02 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
